                               United States Department of State
                               and the Broadcasting Board of Governors

                               Office of Inspector General
Office of Inspector General

                              Semiannual Report to the Congress



                               October 1, 2003 to March 31, 2004
                             TABLE                   OF        CONTENTS
PREFACE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
CONGRESSIONAL ACTIVITIES AND OUTREACH . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

DEPARTMENT OF STATE
  SECURITY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
  INSPECTIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
  AUDITS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 43
  INFORMATION TECHNOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 57
  INVESTIGATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 61
  APPENDIX 1: INVESTIGATIVE ACTIVITIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . 65
  APPENDIX 2: REPORTS ISSUED . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 67
  APPENDIX 3: SAVINGS AND MORE EFFECTIVE USE OF RESOURCES
      TABLE 1: QUESTIONED COSTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 71
      TABLE 2: FUNDS TO BE PUT TO BETTER USE . . . . . . . . . . . . . . . . . . . . . 72
   SIGNIFICANT MANAGEMENT SUCCESS IN IMPLEMENTING OIG
      RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .73

BROADCASTING BOARD OF GOVERNORS
  INSPECTIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 75
  AUDITS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 81
  INVESTIGATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 83
  APPENDIX 1: Investigative Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 85
  APPENDIX 2: Reports Issued . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 87
  APPENDIX 3: Savings and More Effective Use of Resources
      Table 1: Questioned Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 89
      TABLE 2: FUNDS TO BE PUT TO BETTER USE . . . . . . . . . . . . . . . . . . . . . .90
  APPENDIX 4: RESOLUTION OF REPORTS AND RECOMMENDATIONS . . . . . . . .91
  SIGNIFICANT PROBLEMS, ABUSES, AND DEFICIENCIES . . . . . . . . . . . . . . . . . . 92
  SIGNIFICANT MANAGEMENT SUCCESSES IN IMPLEMENTING OIG
      RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 92

     LIST OF ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 93
     INDEX OF REPORTING REQUIREMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 95
                                    PP REFACE
                                     REFACE




       The Inspector General Act of 1978, as amended (PL 95-452), requires each
  Inspector General to prepare a semiannual report summarizing the activities of that
  Office of Inspector General for submission to the appropriate congressional com-
  mittees or subcommittees. The attached report provides information on our activi-
  ties during the indicated period ending March 31, 2004. The summaries reflect the
  conditions at the post or office at the time of the inspection or audit.

      The mission of the Office of Inspector General is to serve as an independent,
  objective reviewer and evaluator of the operations and activities of the U.S. Depart-
  ment of State and the Broadcasting Board of Governors.

      The Office of Inspector General assesses those operations and activities with a
  view toward promoting effectiveness, efficiency, and economy and seeks out in-
  stances of fraud, waste, abuse, and mismanagement as we work to prevent them.
  The Office of Inspector General reports to the Secretary of State, the Broadcasting
  Board of Governors, and the Congress, keeping them fully and promptly informed
  of significant developments and serious concerns.




                                                                         Anne W. Patterson
                                                                   Deputy Inspector General
                                                                              April 30, 2004




Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004   1
2   Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004
                   EXECUTIVE SUMMARY

      Over the course of this period, the Office of Inspector General (OIG) reviewed
  and monitored programs, activities, and operations of the Department of State
  (Department) and Broadcasting Board of Governors (BBG). OIG's most significant
  activities are a reflection of the most serious management and performance chal-
  lenges faced by both agencies. Key reviews are highlighted below in the context of
  OIG's four strategic goals.




    The Department and BBG effectively, efficiently, and
  economically advance the foreign policy interests of
  the United States

      During this semiannual reporting period, the Department and BBG faced new
  challenges due to war on terrorism, U.S. efforts in Iraq, and U.S. border security.
  OIG's work reflects these important and changing circumstances at our posts over-
  seas and in our domestic bureaus. OIG has implemented a multi-disciplinary team
  approach to inspections. During this period, OIG inspected 11 overseas posts, four
  domestic bureaus, and conducted two consular reviews.

      Among the issues OIG examined were passport operations and the potential for
  fraud. Annually, over 250,000 persons seek U.S. passport services at posts abroad. In
  comparison to visa issuance, fraudulently obtained passports constitute an equal, if
  not greater, threat to homeland and U.S. border security. OIG's review of the
  Overseas Passport Issuance Program showed that there were inconsistencies in the
  decisionmaking on claims to American citizenship made by first-time passport
  applicants. OIG recommended that the Bureau of Consular Affairs (CA), which is
  responsible for passport issuance, develop and implement a plan for quality assur-
  ance. In addition, OIG recommended that CA transfer oversight of the overseas
  passport issuance program to the Directorate of Passport Services or design an
  acceptable alternative.

      In response to a recommendation from a congressional joint inquiry on the
  terrorist attacks of September 11, 2001, OIG reviewed Department procedures
  related to the issuance of the visas to the September 11, 2001 terrorists. OIG



Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004   3
    concluded that the consular officers who issued the visas adhered to prevailing
    policies at the missions at the time, and to the Department's published policies,
    practices, and procedures required by law in effect at the time.

          Domestically, OIG inspected the Bureaus of Economic and Business Affairs,
    Educational and Cultural Affairs (ECA), Near Eastern Affairs (NEA), and South
    Asian Affairs (SA). In NEA, whose responsibilities include antiterrorism, the after-
    math of the war in Iraq, the Israeli-Palestinian peace process, and advancing the
    Middle East Partnership Initiative, OIG identified staffing concerns. Stemming in
    part from its tremendous workload, OIG noted that the possibility of employee
    burnout may prevent development of the needed cadre of skilled, language-trained
    officers. In SA, which is also on the front line of the war on terror, OIG found that
    the executive office shared with NEA is understaffed in light of the growing respon-
    sibilities for establishing an embassy in Baghdad.

        Overseas, OIG inspected U.S. embassies in Kathmandu, Nepal; Colombo, Sri
    Lanka; Dhaka, Bangladesh; Ulaanbaatar, Mongolia; Seoul, Republic of Korea;
    Brussels, Belgium; Luxembourg; and Dili, East Timor. Other posts inspected in-
    cluded the U.S. Mission to the European Union, the U.S. Mission to the North
    Atlantic Treaty Organization, and the European Logistical Support Office in
    Antwerp, Belgium.

        At Embassy Seoul, OIG observed that the country team was well coordinated,
    and did a fine job of coordinating with the U.S. Forces in South Korea, the American
    military command headquartered in Seoul. Although the embassy has fought to seek
    a clear commitment from the South Korean government to allow construction to go
    forward on a new chancery and housing compound, there was a lack of progress
    linked to South Korean sensitivity to public criticism, not to the embassy's lack of
    trying. OIG noted that resolving the facilities issue was critical.

        OIG's inspection of Embassy Ulaanbaatar found that the new front office team
    was providing needed leadership to bring the embassy into compliance with Depart-
    ment standard operating procedures. However, financial management was deficient,
    and OIG recommended that a corrective management controls statement with a
    plan of action should be submitted. OIG also noted that the embassy's consular
    services could be improved through better workload management and by focusing
    on nonimmigrant visa processing.

       OIG also inspected the BBG's Middle East news bureaus and International
    Broadcasting Bureau transmitting stations in Sri Lanka and Kuwait. At the news
    bureaus, OIG focused on program management and performance and on manage-
    ment and internal controls. OIG found coordination and cooperation among the


4   Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004
  bureaus were lacking, that equipment levels were uneven at the bureaus, and that
  management controls were weak. At the transmitting station in Sri Lanka, which has
  expanded its transmission capabilities by nearly 50 percent in three years, there were
  good management controls, although OIG found that the station could benefit from
  more competition in its procurements. At the Kuwait Transmitting Station, OIG
  conducted a similar assessment and found the station has low costs, performs well,
  and is well managed. However, OIG also found that, in January 2003, the station
  relied on verbal and written assurances of being granted a new frequency and initi-
  ated FM broadcasts of Radio Sawa to Kuwait City. OIG pointed out that the lack of
  formal approval from the government of Kuwait, if left unresolved, may jeopardize
  continuation of those broadcasts.




        The Department and BBG adequately protect
  the people, information, and facilities under their
  control in the United States and abroad

       During this period, OIG conducted 11 security oversight inspections and a
  compliance follow-up review. Security inspections focus upon protecting people,
  facilities, and national security information. The details of these inspections are
  discussed in the classified annex to this report. OIG also reviewed the Department's
  protection of classified information at headquarters and at overseas posts. At
  overseas posts, OIG concluded that existing Department policies provide adequate
  guidance for protecting classified documents and noted that the revised security
  incident policy appears to be having a positive influence on classified document
  protection. The review at Department headquarters examined, among other matters,
  whether the Department has a system for tracking security violations and whether
  such violations affect personnel security clearances. OIG concluded that the
  Department's methods for maintaining accountability and control comply with the
  relevant requirements.

       OIG Information Technology (IT) staff participated in security reviews at
  several domestic bureaus and at embassies in Seoul, Dhaka, Kathmandu, Brussels,
  and other cities. The IT inspections called for improvements in management and
  operational and technical controls. Specifically, Embassy Dhaka was found to need
  strategic and budgetary planning and information systems documentation, whereas
  Embassy Kathmandu, which has unreliable electrical and telephone service, was
  found to need an information technology strategic plan that includes a lifecycle
  schedule for replacement of information technology equipment. At Embassy



Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004   5
    Ulaanbaatar, OIG found a need for contingency planning to ensure continuity of
    information technology operations. OIG recommended that the embassy develop
    and implement a contingency plan for its information systems.




       The Department and BBG have the necessary
    financial and support systems and controls to
    meet legal and operational requirements

         Over this period, the OIG conducted audits and reviews of programs, contracts
    and grants, procurement, property and administrative support, and financial manage-
    ment. Responding to a request from ECA, OIG reviewed a Department grantee and
    found that the grantee had reported budgeted costs, not incurred costs, on its quar-
    terly financial reports. Therefore, OIG questioned about $226,000 of direct costs,
    of which $20,543 was classified as unsupported. Similarly, OIG's review of the
    indirect cost rates of the National Democratic Institute for International Affairs for
    fiscal years 1999 through 2002 found that the rates did not comply with Office of
    Management and Budget cost principals for non-profit organizations. As a result,
    OIG questioned costs of $45,124 for advertising and public relations.

        OIG's review of the Department's unauthorized commitments and ratifications
    process for fiscal 1997 through June 2002 identified 122 unauthorized commitments
    totaling about $6.8 million. OIG identified gaps in the Department's ratification
    procedures and found that bureaus had about $4 million in recurring unauthorized
    commitments from fiscal 1997 to June 2002. Unauthorized commitments for con-
    tracts of recurring goods and services amounted to 66 percent of the $6.8 million.
    OIG recommended that the Department issue guidance about the potential for
    disciplinary action resulting from unauthorized commitments.

        OIG conducted an extensive survey of the Department's Regional Information
    Management Center, looking at allegations regarding the foreign post telephone
    contract. OIG determined that the allegations had no basis. In response to an OIG
    Hotline complaint alleging contract irregularities, OIG looked at the procurement in
    question and identified routine contract administration deficiencies and several
    contract irregularities. OIG recommended that the contract be closed out immedi-
    ately.

       The Department made significant improvements and received an unqualified
    opinion on its financial statements for the seventh year. However, OIG also deter-



6   Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004
  mined that more still needs to be done. The audit of the financial statements identi-
  fied significant internal control weaknesses related to computer system security, the
  adequacy of the Department's financial systems, undelivered orders, and tracking
  and reporting of managerial cost accounting data. In addition, OIG reviews regard-
  ing payments found internal control weaknesses. For instance, it found that there
  were more potential duplicate payments than the Department had identified and that
  there was not evidence that the Department took sufficient follow-up action on
  potential duplicate payments. Strengthening internal controls in these areas will help
  the Department in its efforts to comply with the Improper Payments Information
  Act.




    The Department and BBG ensure accountability
  and prevent or eliminate fraud, waste, abuse, and
  mismanagement in programs and operations

       OIG helps carry out its mission of ensuring accountability and preventing fraud,
  waste, abuse, and mismanagement in the Department and BBG. Over the period,
  Investigations handled cases involving employee misconduct, false statements and
  claims, theft, passport and visa fraud, and contract and procurement fraud. Among
  these was a case involving a Department warehouse employee, who was arrested
  recently and convicted of theft of government equipment from the warehouse. An
  undercover investigation in fiscal 2003 found that the employee, who acted alone,
  stole approximately $20,119 in equipment, pawning it for cash. The investigation
  recovered seven items valued at $2,634.42 and resulted in the employee being
  charged with four counts of theft of government property and, upon conviction,
  being ordered to pay $17,484.95 in restitution. An investigation into the theft of
  $2.7 million in Post Assignment Travel funds from Embassy Lusaka, Zambia, by a
  former Foreign Service national resulted in a 114-count criminal indictment being
  filed against three Zambian nationals with alleged ties to the scheme.

      Also during this period, OIG reviewed allegations related to the Bureau of
  Resource Management's (RM) relocation from Washington to the Financial Service
  Center in Charleston, South Carolina. OIG determined that RM would meet its
  obligations under law and regulation regarding the notification that must be provided
  before separating employees as long as the Department adheres to its intended
  transition milestones. In addition, OIG also advised RM to develop a detailed
  transition plan as soon as possible, but noted that RM had provided sufficient
  information to employees regarding other employment opportunities.



Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004   7
8   Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004
               CONGRESSIONAL ACTIVITIES
                   AND OUTREACH


      Reports Requested by Congress

      The Office of Inspector General (OIG) conducted the following reviews in
  response to legislative mandates and requests from Congress:
  •    In response to a joint request by the Senate Select Committee on Intelligence
      and the House Permanent Select Committee on Intelligence, OIG reported on
      the Review of Department of State Procedures Related to the Issuance of
      Visas to the September 11, 2001, Terrorists (ISP-CA-04-17).
  •   As mandated by Section 832 of the FY 2003 Intelligence Authorization Act
      (Public Law 107-306), OIG reported to the Senate Select Committee on
      Intelligence, the House Permanent Select Committee on Intelligence, the
      Senate Foreign Relations Committee, and the House International Relations
      Committee on the Protection of Classified Information at State Department
      Headquarters (SIO/A-04-11).
  •   In response to concerns raised by Rep. Steny Hoyer (D-MD-5), OIG was asked
      by the Bureau of Resource Management to review allegations related to the
      relocation of employees of the Bureau of Resource Management to the
      Charleston Financial Service Center (ISP-I-04-18).

      The Deputy Inspector General and OIG staff met with staff of the following to
  review and comment on a variety of issues regarding the operations and programs
  of the Department and the Broadcasting Board of Governors (BBG): Senate Ap-
  propriations Subcommittee on Commerce, Justice, State and the Judiciary; the House
  Appropriations Subcommittee on Commerce, Justice, State, the Judiciary and Related
  Agencies; the Senate Foreign Relations Committee; the House International Rela-
  tions Committee, and the House Government Reform Committee.




Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004   9
         Outreach/Media Assistance
         CONGRESSIONAL ACTIVITIES AND OUTREACH
         OIG participates in several courses offered by the Foreign Service Institute to
     inform all newly appointed ambassadors, deputy chiefs of mission, new Foreign
     Service officers, and new Civil Service employees on the role, mission, and services
     provided by OIG. In addition, the Inspector General or Deputy Inspector General
     individually briefs all newly appointed ambassadors prior to their departure regarding
     issues specifically related to their assigned embassies. OIG participated in one
     Ambassadorial Seminar, three Foreign Service Officer orientations, and four new
     Civil Service officer orientations.

         In January 2004, the assistant inspector general for inspections presented a
     briefing to an anti-corruption delegation from Uzbekistan regarding OIG's inspec-
     tion process and the deputy assistant inspector general for investigations answered
     questions regarding OIG's investigative process.

       During this reporting period, OIG responded to media inquiries concerning
     OIG's 2001 and 2002 reviews of the Iraqi National Congress Support Foundation.




         Legislation Monitored

     •   S. 2144 - The Foreign Affairs Authorization Act, FY 2005.
     •   S. 2127 - The Stabilization and Reconstruction Civilian Management Act of
         2004, a bill that would give the Department greater control over rebuilding
         war-ravaged nations.
     •   H.R. 2673 - The Consolidated Appropriations Act, 2004 (Public Law 108-199).
     •   H.R. 1950 - A bill to authorize appropriations for the Department for the
         Fiscal Years 2004 and 2005.
     •   H.R. 2417 - Intelligence Authorization Act for FY 2004
     •   H.R. 3826 - A bill to require the review of government programs at least once
         every five years for purposes of evaluating their performance




10   Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004
      Policy Review
    CONGRESSIONAL ACTIVITIES AND OUTREACH

      Review of existing and proposed regulations

          OIG continued to review new and revised Department regulations and
  policies and make suggestions to improve internal and management controls over
  Department programs and operations. In addition, the OIG actively participated in
  the Department's FAM-X project to review and rewrite regulations, policies and
  instructions in the foreign affairs manuals and handbooks with the goal of writing
  them in "plain English" and making them more useful to readers. Many of OIG's
  suggestions to make this project more effective and efficient were accepted and are
  being implemented.




     Participation on the President's Council on
  Integrity and Efficiency

      OIG participation on the President's Council on Integrity and Efficiency in-
  cluded attending a meeting with the President to commemorate the 25th anniversary
  of the Inspector General Act, attending its annual retreat with the theme "Returning
  America's Investment in the Inspectors General," and providing input to various
  committee projects on crosscutting issues.




      Federal Managers' Financial Integrity Act

         OIG continued its prominent role as a non-voting member of the
  Department's Management Control Steering Committee. The committee imple-
  ments provisions of the Federal Managers' Financial Integrity Act and Office of
  Management and Budget (OMB) Circular A-123 on Management Accountability and
  Control. OIG provided independent, objective quality assurance for the committee
  to determine if material weaknesses or reportable conditions exist in the




Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004   11
     Department's programs and operations, and if corrective actions have been imple-
       C                                 A
         ONGRESSIONAL CTIVITIES AND UTREACH                               O
     mented to meet the Committee's criteria for not reporting them in the Department's
     annual performance and accountability report.




       Implementation of the Government Performance
     and Results Act and the President's Management
     Agenda

         During this semiannual reporting period, OIG continued to selectively evaluate
     Department and BBG efforts to manage for results by reviewing mission and bureau
     performance plans for each mission and bureau inspected, recommending establish-
     ment of effective performance measures for selected programs and operations, and
     identifying issues, concerns, and improvements related to the implementation of the
     President's Management Agenda (PMA).

          Strategic and performance planning, performance measurement, and budget
     integration continue to be major challenges for the Department, but the Department
     has devoted considerable effort to improving its planning and resource allocation
     process and to addressing weaknesses in its planning and performance reporting that
     have been identified by OMB and independent evaluation groups. The planning and
     resource allocation process is receiving attention at the highest levels of the Depart-
     ment, with the Deputy Secretary chairing the reviews of bureau performance plans
     and resource requests. Improvements to the Department's automated application for
     submitting mission and bureau performance plans have standardized performance
     goals and measures across bureaus and have integrated Performance Assessment
     Review Tool (PART) evaluation information into the planning process. The issuance
     of a joint strategic plan with U.S. Agency for International Development (USAID)
     last fall led to the establishment of two joint councils. The Joint Policy Council,
     chaired by the Deputy Secretary of State and the Administrator for USAID, and the
     Joint Management Council, chaired by the Under Secretary of State for Management
     and the Deputy Administrator of USAID, are responsible for addressing policy and
     management issues that cut across the two agencies. These collaborative efforts are
     directed toward ensuring that foreign policy and development assistance are fully
     aligned to advance the National Security Strategy of the United States.

        OIG's work on the Department's strategic and performance planning and
     implementation efforts was limited largely to assessments of individual program and
     mission efforts rather than systemic activities. As part of its inspection process, OIG



12   Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004
  routinely reviews how the inspected embassy or bureau develops and uses its perfor-
  mance plan. For the posts and bureaus inspected this semiannual reporting period,
  OIG generally found that the Mission Performance Plans (MPPs) and Bureau
  Performance Plans (BPPs) were effective. For example:
  •   The Bureau of South Asian Affairs (SA) (ISP-I-04-12) BPP linked goals and
      objectives to resources and resource needs, was successfully contributing to
      bureau efforts to obtain additional personnel, and reflected efforts to fulfill the
      PMA, particularly in rightsizing. However, it did not have any goals that incor-
      porated Information Technology (IT) plans, upgrades, and lifecycle manage-
      ment issues.
  •   The Bureau of Economic and Business Affairs (ISP-I-04-06) pursued an
      orderly process of setting and tracking priorities based on key objectives,
      tracked the BPP and updated it semiannually based on a review of the bureau's
      priorities, and used the process as a tool to educate staff about bureau priori-
      ties and the work of the component directorates. While it did not list a specific
      public diplomacy goal, it did recognize the importance of public diplomacy in
      advancing U.S. government economic policy objectives.
  •   The Bureau of Educational and Cultural Affairs (ISP-I-04-07A) performed
      well in developing its BPP, even though the contributions of its programs to
      the long-term goal of building mutual understanding were inherently difficult
      to measure. The evaluations it developed over the past five years supported
      the measurement of accomplishment at the core of the strategic planning
      process.

     OIG also identified some MPPs and BPPs that needed improvement. For
  example:
  •    Embassy Brussels' (ISP-I-04-02A) MPP was too long and detailed and should
      have been more sharply focused on key bilateral issues and programs. The
      embassy was starting a country team review of the implementation of key
      goals in an effort to use the MPP more effectively as a management tool.
  •    Embassy Kathmandu's (ISP-I-04-09A) MPP gave appropriate emphasis to the
      protection of American citizens, but failed to discuss adequately the rapid
      increases in visa workloads that had resulted in the need for additional staff
      and consular workspace.




Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004   13
     •   The Bureau of Near Eastern Affairs (NEA) 's (ISP-I-04-11) BPP assigned
         priority to only three public diplomacy goals, none of them areas where its
         public diplomacy unit had action or significant control, and lacked specificity
         on IT planning. Although the current BPP stated that NEA will extend the
         use of state-of-the-art technologies, equipment, and capabilities as it renovates
         current facilities, the bureau had not developed a strategic IT plan to accom-
         plish that objective.

          BBG also has made some progress in its planning efforts. BBG has indicated that
     it intends to prioritize its goals and align its budgetary resources to align with its new
     vision, and will reflect this focus in the agency's FY 2005 program plan and FY 2006
     budget proposal. In addition, in response to OIG's review of Strategic Management
     of Human Capital and Workforce Planning Initiatives at the Broadcasting Board of
     Governors (Report Number IBO-A-03-02, September 2003) BBG's Office of
     Personnel hired a contractor in January 2004 to examine the effectiveness of its
     provision of services, organization, and scope of agency support for use in the
     agency's new Workforce Analysis and Restructuring Plan.

         A major focus of the Department's strategic goal of management and organiza-
     tional excellence is the PMA. Although OIG did not perform any work designed
     specifically to evaluate Department efforts to implement the PMA, it did evaluate
     PMA-issues relevant to specific mission and bureau inspections and other program
     reviews. One initiative of the PMA that is of particular importance to the Depart-
     ment is the rightsizing of U.S. overseas presence --ensuring the most appropriate
     interagency staffing of U.S. missions around the world. OIG found NEA and SA to
     be understaffed to meet the growing demands of their overseas missions. In the
     Bureau of Educational and Cultural Affairs, OIG recommended a formal review to
     determine the appropriate mix of Civil Service and Foreign Service personnel to
     achieve the bureau's mission.

         Staffing at some overseas missions, notably Embassies Seoul (ISP-I-04-13A),
     Brussels, the U.S. Mission to NATO (ISP-I-04-16A) and the U.S. Mission to the
     European Union (ISP-I-04-15A), were in line with priorities, budget allocations, and
     security concerns. At other missions, such as Kathmandu (ISP-I-04-09A) and
     Ulaanbaatar (ISP-I-04-14A), OIG recommended remedial solutions to address the
     dramatic growth in staffing over a relatively short period, which had placed signifi-
     cant demands on resources, space, and management services.




14   Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004
     Another PMA area of particular emphasis in OIG management inspections is
  budget and performance integration. OIG recommendations on this issue included:
  •   Holding regular interagency meetings tied to major goals and objectives, and
      preparing a reporting plan to cover some of the major political and economic
      goals in the MPP at Embassy Dili (ISP-I-04-05A);
  •   Developing a training plan for all employees that reflects MPP objectives,
      professional development requirements, and available funding at Embassy
      Ulaanbaatar (ISP-I-04-14A): and
  •   Restructuring the public affairs section to make better use of resources to
      achieve the MPP's public diplomacy goals at Embassy Seoul (ISP-I-04-13A).

      Several audits also focused on the reduction of improper payments, an element
  of the PMA initiative to improve financial management, which are a long-standing,
  widespread problem in the federal government, amounting to about $35 billion. The
  Department has contracted with an accounting firm to develop a process to measure
  and report on the extent of its improper payments, in compliance with the Improper
  Payments Information Act of 2002. To assist the Department, OIG conducted
  three audits--Payments Made Without an Obligation (AUD/FM-04-16), Audit of
  Duplicate Payments (AUD/FM-04-17), and Audit of the Vendor Reference Table
  (AUD/FM-04-18) of areas not addressed by the contractor and identified internal
  control weaknesses and recommended ways to strengthen internal controls in each
  area.




Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004   15
                                           SECURITY




16   Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004
                                       SECURITY

       During this reporting period, OIG conducted 11 security oversight inspections
  and one compliance follow-up review, which were issued in ten reports.1 All of these
  inspections were full-scope inspections, covering the full-range of a mission's secu-
  rity program, with the exception of that of Embassy Mexico City, which was limited
  to a review of physical security, emergency preparedness, and information systems
  security. Also during the reporting period, OIG conducted two audits. One reviewed
  the Department's protection of classified information at its headquarters and the
  other examined the protection of classified documents at overseas posts.

      Because these reports discuss specific security vulnerabilities at the Department
  and its missions, report summaries will be published as a separate, classified annex to
  this report. A list of the classified reports issued during this semiannual period may
  be found in Appendix 2 of this report.




  1
    Inspections of the U.S. Mission to the North Atlantic Treaty Organization and the U.S. Mission
  to the European Union were included with the report on Embassy Brussels, thus being listed in
  this count only as one report.

Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004     17
18   Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004
                                  INSPECTIONS

      Consular Affairs


    Review of the Overseas Passport Issuance
  Program, ISP-CA-04-01

           Following the terrorist attacks of September 11, 2001, OIG expanded its
  review of all consular operations related to U.S. border security, including an evalua-
  tion of the overseas passport function. Over 250,000 claimants annually seek U.S.
  passport services at posts abroad. In comparison to visa issuance, fraudulently
  obtained passports constitute an equal, if not greater, threat to homeland and border
  security. OIG's review showed that decisions on claims to American citizenship for
  first-time passport applicants overseas are inconsistent. For example, some posts
  permitted waivers of certain applicants' personal appearances to help streamline and
  facilitate "crowd control." In sum, there is no quality assurance program in place for
  the overseas passport issuance program.

           The Bureau of Consular Affairs (CA) is responsible for implementing the
  passport function both domestically and overseas. OIG therefore recommended
  that CA design and implement a quality assurance program to identify trends and
  issues that require more training and information sharing. OIG also recommended
  that CA transfer oversight of the overseas passport issuance program to the Direc-
  torate of Passport Services to make overseas passport procedures consistent with the
  restrictions currently being placed on domestic passport processing or submit an
  acceptable alternate plan. CA concurred with these recommendations and is in the
  process of implementing them.




Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004   19
                         Consolidation of Consular Operations
                                  at Embassy Quito

            During this semiannual reporting period, the Deputy Inspector General
        notified the Under Secretary for Management of OIG's intention to initiate
        impasse proceedings on a recommendation to consolidate consular opera-
        tions at Embassy Quito. The recommendation was contained in OIG's
        Inspection of Embassy Quito, Ecuador, and Constituent Post (ISP-I-03-19)
        issued in March 2003.
            During the inspection, OIG found that working conditions at the consu-
        late general in Guayaquil were unacceptable due to security concerns, and
        cramped, inefficient consular work areas that impeded workflow, effective
        management controls, and normal supervision. OIG believed that consoli-
        dating consular operations at Embassy Quito would address these prob-
        lems. The Bureau of Western Hemisphere Affairs and the Bureau of Con-
        sular Affairs disagreed with OIG's recommendation.
            Implementing this recommendation has become an urgent matter due
        to a recent Bureau of Overseas Buildings Operations (OBO) determination
        to drop plans to construct a new $80 million building in Guayaquil due to
        budget constraints. As planning for the construction of the new Quito
        embassy is in the early stages, it is vital that OBO's planning factor in the
        needs of a consolidated consular section at Quito. The Under Secretary
        for Management is in the process of resolving this issue.




20   Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004
                    Review of Department of State Procedures
                         Related to the Issuance of Visas
                      to the September 11, 2001, Terrorists,
                          ISP-CA-04-17, December 2003

          In response to a recommendation contained in a congressional joint
      inquiry on the terrorist attacks of September 11, 2001, OIG reviewed
      Department procedures related to the issuance of visas to the September
      11, 2001 terrorists.
          OIG interviewed each of the visa officers and consular associates
      responsible for issuing a visa to one or more of the 19 terrorist hijackers.
      OIG also visited the missions at which those visas were issued and inter-
      viewed staff regarding policies, procedures and practices in effect at that
      time. Similarly, relevant bureaus and offices within the Department were
      consulted. OIG's review concluded that the consular officers who issued
      visas to the terrorist hijackers acted in accordance with policies that pre-
      vailed at their missions at the time the visas were issued, with published
      policies, practices and procedures established by the Department, and
      required by visa law in effect at the time.




      Domestic Bureaus


    Inspection of the Bureau of Economic and
  Business Affairs, ISP-I-04-06

      More than at any other time in recent memory, the Bureau of Economic and
  Business Affairs (EB) is directly and deeply engaged in a wide range of policy
  formulation and execution. It does so by taking the lead on important issues such as
  Iraq reconstruction and by performing a critical coordinating role on other issues.
  EB has carried out these responsibilities efficiently. The Assistant Secretary gets
  much of the credit for moving the bureau into this position of centrality.




Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004   21
         EB organized the Iraq Reconstruction Donors' Conference in Madrid. It was a
     significant success with 93 participating governments and international organizations
     represented. Pledges of $13 billion were forthcoming in addition to the U.S. contri-
     butions. About 400 U.S. private sector firms met with Iraqi officials to explore
     commercial and business prospects.

         Program changes impacting EB workload warrant shifting resources to other
     priority programs. In some areas EB has achieved the purposes for which the offices
     were established or special negotiator portfolios created. These include programs for
     conflict diamonds, Caspian basin energy diplomacy, and biotechnology. Some of
     these should now be phased out, with residual responsibilities folded into other units
     within the bureau. Concurrently, EB will need to provide at least staff support to
     the Secretary in his role as chairperson of the newly established Millennium Chal-
     lenge Corporation, whose initial funding of $650 million for FY 2004 is expected to
     increase.

         EB faces the significant challenge of providing support to U.S. businesses over-
     seas in places without a Foreign Commercial Service (FCS) presence. Over 100
     posts have no American FCS staff, and projections are that this number will increase
     over the next few years. EB is the logical place to deal with this change. OIG
     recommended that EB prepare and submit a plan to support non-FCS commercial
     officers.

          As a bureau, EB is exceptionally rank-heavy with 29 percent of its 206 positions
     at the senior levels compared to the Department average of 17 percent. OIG
     discussed with EB management the need to resist pressures for further rank escala-
     tion and made recommendations for balancing rank by reclassifying downward some
     positions.

         EB's leadership was engaged in all aspects of the bureau's operations, including
     human resources and workforce management, ensuring EB's ability to operate with
     increased effectiveness and flexibility using innovative management practices. EB
     used Foreign Service short tours, rehired annuitants, contractors, presidential man-
     agement interns, detailees from other agencies, science fellows, and temporarily
     converted Foreign Service to Civil Service positions to address staffing gaps,
     workload surges, and new initiatives. The front office gave special attention to
     recruitment, good onward assignments for employees, and training and development.




22   Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004
             Best Practice: Improving morale, communication, and
             productivity between office management specialist staff and
             their supervisors in the Bureau of Economic and Business
             Affairs

             Issue: Pervasive discontent existed among Office Management
             Specialist (OMS) staff.

             Response: The Foreign Service Institute facilitated a retreat for
             the OMS staff, and EB created a task force of officers and OMS
             personnel to develop standard operating procedures and to
             recommend improvements in the support functions. In addition,
             the bureau drafted a guide to office relations.

             Result: The project was considered positive by most, and many
             OMS staff have taken on new opportunities and challenges as a
             result.




     Inspection of the Bureau of Near Eastern
  Affairs, ISP-I-04-11

      The Bureau of Near Eastern Affairs (NEA) was doing an admirable job in
  addressing its challenges, but the tremendous workload and the stress of crisis
  management, could lead to employee burnout and threaten the development of a
  sufficient cadre of skilled, language-trained officers needed in the coming decades.
  NEA was understaffed and was seriously hobbled by lack of space in the Harry S
  Truman building. Its responsibilities for addressing the aftermath of the war in Iraq,
  terrorism, the Israeli-Palestinian peace process, and for improving relations with the
  nations of the Middle East through the Middle East Partnership Initiative (MEPI),
  involve both intensive diplomacy and successful management of massive resources.

     To improve the integration of work formerly performed by the U.S. Information
  Agency (USIA) into NEA, and to make public diplomacy more relevant to the main
  work of the bureau, at least two positions in the Office of Press and Public Affairs
  should be transferred into the regional offices, with more to follow.




Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004   23
         The bureau's administrative operations are widely considered to be among the
     strongest in the Department. Understaffing, however, threatened productivity. The
     information management function received high marks for customer service, but this
     came at the expense of efficient information management and effective information
     systems security.

         OIG reviewed the multinational force and observers and found that while NEA's
     policy oversight was strong, management and personnel oversight needed improve-
     ment. OIG recommended that management oversight responsibilities be transferred
     from the Office of Regional Affairs to the Office of the Executive Director.

         The Department has only a handful of employees with language skills sufficient
     for interviews on Arab TV or radio and needs more language qualified officers.
     However, the Department lacks the necessary number of mid-level personnel to
     allow for a "float" to enable sufficient employees to take advanced language training.
     Increased hiring under the Diplomatic Readiness Initiative should help to begin to
     remedy this.




24   Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004
                                             Rightsizing

           During this reporting period, OIG inspections reported on rightsizing issues faced by
      overseas missions and domestic bureaus. In the Department, OIG found NEA to be seriously
      understaffed relative to its ever-growing responsibilities. The bureau traditionally had preferred
      a "lean and mean" staffing structure with fewer, but carefully selected, officers in both its
      embassies and in the Department. The approach had worked well in normal circumstances but
      left the bureau with little surge capacity for dealing with crises. Officers were coping with a tidal
      wave of work by staying longer hours, courting burnout in order to complete requirements. The
      bureau had few officers for some of its most important desks.
             Embassies and consulates that responded to OIG's inspection questionnaire urged OIG
      to look closely at understaffing in the bureau. While lauding the performance of individual NEA
      officers across the board, many respondents contended that NEA did not have adequate staff
      to meet their needs. OIG heard similar complaints from functional bureaus that work closely
      with NEA.
           OIG's inspection of SA noted that it had more than doubled in size since 1996, increasing
      from 31 to 68 positions. OIG believed the staffing growth was warranted by priorities in
      Afghanistan, Pakistan, and India and that the bureau needs the additional staff it has re-
      quested. Some offices had become top heavy and very small through organizational realign-
      ments, and OIG counseled management to carefully monitor staffing levels for its offices.
           Overseas, OIG found that the staffing at Embassy Seoul was generally in line with MPP
      priorities, budget allocation, and security concerns. In the months before the inspection the
      Ambassador approved requests from other agencies for four additional U.S. direct-hire
      positions, stipulating that the incumbents would not be allocated new office space within the
      chancery nor be provided U.S. government owned housing. He also denied the request from
      one embassy section to include staff increases in the MPP, arguing that existing staff, if
      properly deployed, was adequate for the function. The limit on U.S. government owned
      housing is a factor in restricting the number of approvals for additional positions for Department
      and other agency positions.
           At Embassy Kathmandu, the growth of U.S. diplomatic activity had been matched by
      dramatic growth of embassy staff. During FY 2003, the Department staff increased by more
      than 50 percent - primarily junior officers and specialists in the consular and management
      sections. The increase had placed significant demands on resources and space. At Embassy
      Ulaanbaatar, the staffing had increased from 67 employees in 1997 to 158 in 2003. The
      embassy still required outside support to improve management services, and OIG recom-
      mended that it seek support from EAP, regional training centers, and nearby embassies.
           OIG found staffing at Embassy Brussels, U.S. Mission to the North Atlantic Treaty
      Organization, and the U.S. Mission to the European Union, appropriate in terms of mission,
      cost, and security.




Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004              25
                       Bureau of Near Eastern Affairs
                   The Middle East Partnership Initiative

             The Middle East Partnership Initiative (MEPI) was launched in May
        2002 as a key ingredient of a broad new strategy to foster democratic
        development and advance U.S. policy interests throughout the Middle
        East. While the Deputy Secretary of State is the coordinator of the initia-
        tive, MEPI's day-to-day management is handled by NEA's Office of the
        Partnership Initiative (NEA/PI), which was created in June 2003 and
        reports to NEA's deputy assistant secretary for economic policy. MEPI was
        funded at $29 million in FY 2002, $100 million in FY 2003, and $90 million
        in FY 2004.
             The initiative has wider goals than even these sizable appropriations
        suggest. Aside from managing MEPI's four "pillars" of economic growth,
        democratic governance, education, and women's empowerment---MEPI's
        deputy assistant secretary has been given the mandate to review all U.S.
        assistance programs in the region and, if necessary, refocus them to
        ensure they support the MEPI goals of political and economic reform.
        These programs range from an annual assistance package of $600 million
        for Egypt to smaller, but also sensitive, programs in the West Bank and
        Gaza, Jordan, Yemen, Morocco, and Lebanon. NEA/PI's present intention
        is to manage directly some of the grants it funds, while transferring an
        undetermined portion of its program funding to other agencies such as
        USAID to administer.
             OIG did not conduct a full inspection of NEA/PI, given the newness of
        the office and the recent arrival of many of its staff. However, OIG found
        that NEA/PI runs the risk of duplicating existing regional programs of the
        Bureau of Educational and Cultural Affairs, USAID, the Department of
        Treasury (Treasury), the U.S. Trade Representative, and other entities in
        areas such as scholarships and media training, which fall within its four
        broad pillars. In addition, OIG found that NEA/PI is not coordinating well
        with the field on MEPI projects and programs, tasking embassies and
        public affairs officers in an unprioritized and uncoordinated way and caus-
        ing confusion among a number of embassies. OIG counseled NEA man-
        agement about both of these problems. OIG also suggested that MEPI
        staff receive training in contracting so they could serve as technical repre-
        sentatives of the Department's contracting officers.




26   Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004
     Inspection of the Bureau of South Asian
  Affairs (SA), ISP-I-04-12

      The Bureau of South Asian Affairs (SA) is doing a commendable job on the
  front line in the war on terror and in addressing other top foreign policy challenges
  such as nonproliferation and the threat of war between India and Pakistan. These
  issues command the close involvement of the highest levels of the U.S. government.
  The bureau's leadership brings clear vision, knowledge, and energy to pursuing U.S.
  interests in South Asia.

      Bureau leadership focused admirable attention on furthering the improvement of
  the bureau and positioning it to meet challenges in its strategic and volatile region.
  Leadership paid close and disciplined attention to recruitment for key positions,
  training, and staff development. Space was insufficient for the bureau.

      The bureau was doing an excellent job of supporting Embassy Kabul and U.S.
  efforts on counterterrorism, narcotics production, and reconstruction in Afghani-
  stan. Bureau leadership invigorated its public diplomacy program, and its activities
  were increasingly robust. The assistant secretary personally led this effort.

      SA shares an Executive Office with the Bureau of Near Eastern Affairs (NEA).
  OIG found the office understaffed, especially given the responsibilities for establish-
  ing an embassy in Baghdad and addressing frequent crises. Understaffing threatened
  productivity and led to dissatisfaction with its administrative support. SA believed it
  needed its own Executive Office; however, the bureau's small size indicated econo-
  mies of scale in sharing an office with NEA.




Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004   27
                      Review of Allegations Related to
                      the Relocation of Operations of
                   the Bureau of Resource Management
            to the Charleston Financial Service Center (ISP-I-04-18)

             In Summer 2002, the Bureau of Resource Management (RM) relocated
        Washington-based operations including payroll and retirement to the
        Financial Service Center in Charleston, South Carolina. The relocation
        was part of a worldwide consolidation of financial services and systems
        started more than a decade ago to improve efficiency in the Department.
             In September 2003, one employee whose position was being relocated
        to Charleston, South Carolina, wrote a letter to Congress, alleging that her
        rights as an employee were violated and that she had been subject to
        discriminatory practices. The Department reviewed the employee's con-
        cerns and responded to Congress denying any breach of regulations or
        other wrongdoing in the matter. Shortly thereafter, the Chief Financial
        Officer of the Department asked OIG to provide an independent assess-
        ment of the situation.
             Based on the employee's letter, OIG reviewed several areas, including:
        timeliness of notifications, adequacy of information provided, and adher-
        ence to government guidance and laws.
             OIG found that RM will meet its obligations under laws and regulation
        regarding notification required before separating employees provided that
        it adheres to its intended transition milestones. However, RM needs to
        develop a detailed transition plan as soon as possible to ensure that the
        move to Charleston is conducted smoothly.
             RM also provided sufficient information to employees on other employ-
        ment opportunities. However, offices with hiring authority did not always
        process applications correctly and need to be better informed and edu-
        cated regarding proper procedures. OIG did not identify any individual
        who had been denied excused absences as allowed in Career Transition
        Assistance regulations.




28   Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004
    Inspection of the Bureau of Educational and
  Cultural Affairs, ISP-I-04-07A

      The Bureau of Educational and Cultural Affairs (ECA) was doing an excellent
  job of carrying out its long-standing policy mandate of promoting mutual under-
  standing. Paradoxically, job satisfaction in ECA is high, but morale is low. Measures
  have already been started to address some of the management shortcomings. What
  may prove more difficult to overcome is the attitude, held by many of the bureau's
  long-time employees, that many in the Department still do not accord exchanges the
  importance they deserve, and were accorded, when ECA was part of the U.S. Infor-
  mation Agency.

      Bureau leadership has directed significant resources toward audiences in the Arab
  and Muslim world. ECA could do more in this area if it had additional staff and
  funds, however, further redirecting currently available resources from other regions
  toward these audiences is not a viable long-term strategy as the United States is
  facing a rise in attitudes critical of America throughout the world. Even with addi-
  tional resources, ECA's public diplomacy efforts should not be expected in the short
  run to change current unfavorable foreign attitudes towards the United States.

      Post-September 11, 2001, interagency visa clearance procedures have had an
  adverse effect on U.S. government efforts to inform, engage, and influence target
  audiences in the Muslim world. The issuance of student visas has declined sharply,
  and some prospective exchangees have not been able to participate in their programs
  because of delays in visa processing. ECA has worked with CA to speed visa pro-
  cessing of student and official visitors and has sought the Department of Homeland
  Security's help in preventing embarrassing incidents from recurring at U.S. ports of
  entry.

      ECA has made commendable progress in adapting to Department budget and
  fiscal practices, but has yet to comply fully with the Department's required procure-
  ment and property management standards and practices. OIG also found weak-
  nesses in personnel operations.




Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004   29
              The Bureau of Educational and Cultural Affairs Needs
                     to Monitor Exchange Visitor Visas

             OIG is concerned that the Bureau of Educational and Cultural Affairs
        (ECA) is not monitoring adequately grantors who sponsor J-1 visa applicants.
        In 1 FAM 342.4, the Office of Exchange Coordination and Designation is
        authorized to designate qualifying exchange visitor programs as U.S. govern-
        ment sponsored. In addition, it is authorized to develop and implement
        policy and to oversee these programs. Despite a dedicated staff, a shortage
        of personnel and travel resources makes full oversight of exchange visitor
        programs impossible. Since 2000, the bureau has not been able to monitor
        all grantors because ECA's annual requests for increased budget for this
        purpose have not been approved.
             Not monitoring all grantor program sponsors can result in incomplete
        guidance to the field by ECA. As a consequence, consular officers abroad
        could misjudge the visa eligibility of J-1 applicants. According to an OIG
        survey conducted as part of this inspection, many consular officers believe
        that since the U.S. program sponsor vets exchange visitor visa applicants
        they are less likely to apply fraudulently or to become illegal immigrants.
        Because ECA is not able to monitor some of these program sponsors, this
        confidence may be misplaced and lead to inappropriately issued exchange
        visitor visas. OIG recommended that ECA establish a new office to carry out
        oversight responsibilities and, if appropriated funds are not available, seek
        alternate funding.




30   Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004
          Best Practice: Creating an Effective Interagency Working
          Group in the Bureau of Educational and Cultural Affairs

          Issue: Many interagency committees and working groups across
          the federal government are not always effective. The representa-
          tives of the participating departments and agencies sometimes do
          not believe that either they or their agencies benefit very much
          from the group, and among their competing job responsibilities
          their participation may not be a high priority.

          Response: At the time the interagency group was created, the
          coordination staff began by evaluating the challenge and engaging
          in careful, thoughtful planning. They realized that other agencies
          would cooperate more if they received benefits from participation.
          The work of the interagency group was designed so that other
          agencies would receive more useful information about exchanges
          across the federal government.

          Result: The Interagency Working Group has been successful
          and, without any authority to compel other agencies to participate,
          has achieved a measure of coordination of international exchange
          programs among federal agencies. The coordination staff has
          evolved into a clearinghouse of information and the hub of a
          network of individuals at various federal agencies involved in
          international exchanges. The coordination staff has held work-
          shops for all participating agencies on topics of mutual interest,
          such as coping with visa problems.




Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004   31
             Best Practice: Evaluations to Determine Program Results in
             the Bureau of Educational and Cultural Affairs

             Issue: Federal programs may be conducted for many years
             without any method of determining whether their efforts have the
             intended results. The operations of a program may be conducted
             very efficiently and competently, and in that sense be considered
             productive, but they may not be achieving the effects for which the
             program was created.

             Response: Six years ago, the Office of Policy and Evaluation
             created an evaluation program that conducts periodic evaluations
             of the Bureau of Educational and Cultural Affairs (ECA)'s ex-
             change programs. The office hires well-qualified research or
             evaluation consulting firms to conduct the evaluations by means of
             well-established social scientific research techniques. The data
             measures the changes in understanding and knowledge that
             exchange participants have of the United States and its people.

             Result: ECA has scientifically developed data to show the results
             of its program. ECA leaders and staff can cite this information to
             show the effectiveness of the bureau's programs. Because of
             ECA's success, other federal agencies requested that the evalua-
             tion staff conduct a daylong workshop to share information about
             their practices and accomplishments. In addition, the information
             developed by the evaluations contributes to the documentation of
             the bureau's accomplishments for its Bureau Performance Plan,
             and ECA now has the highest score of any Department bureau
             under OMB's Program Assessment Review Tool.




         Overseas Inspections


       Inspection of Embassy Kathmandu, Nepal,
     ISP-I-04-09A

         The Ambassador and the deputy chief of mission at Embassy Kathmandu had
     focused their attention inordinately on substantive issues, and as a result basic man-
     agement had suffered at the post. Morale was low and employee relations were


32   Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004
  strained due to management shortcomings. The deputy chief of mission had not
  provided necessary guidance and mentoring to eight junior officers and six special-
  ists.

      The Ambassador had achieved significant success in dealing with the govern-
  ment of Nepal and had advanced U.S. efforts to help address the Maoist insurgency
  that threatens the regime, the economic growth of the country, and stability in the
  region. This daunting task demanded significant diplomatic engagement. The
  Ambassador and his staff played a central role, helping to set U.S. policy and pushing
  hard to encourage others to support our efforts. American programs to assist Nepal
  have grown dramatically over the past two years.

     The political/economic section provided valuable spot reporting but should
  provide greater analytical coverage to assist Washington in evaluating broad trends.
  Public diplomacy was active and the information resource center well utilized.

      In the area of resource management, the post had made improvements in
  regularizing administrative operations. However, OIG found serious problems in
  overall embassy management.

      Consular workspace was woefully inadequate due to rapid workload expansion,
  with officers and staff working in severely cramped quarters. The proposed move to
  a new facility may alleviate many problems; however, the embassy must take interim
  steps to provide additional
  workspace and adjust proce-
  dures to be able to meet
  current processing mandates.
  The front office paid an
  inordinate amount of atten-
  tion to individual visa cases,
  placing unnecessary pressure
  on the consular chief and
  junior officers.
                                                          Map of Nepal
      The growth of U.S. diplomatic activity in Nepal has been matched by a dramatic
  growth of embassy staff. Over the past year there has been an increase of more
  than 50 percent in Department staff - primarily junior officers and specialists in the
  consular and management sections. The increase placed significant demands on
  resources and space.




Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004   33
       Inspection of Embassy Colombo, Sri Lanka,
     ISP-I-04-03A

         The arrest of the management officer and the consular associate for malfeasance
     (visa fraud) at the end of April 2003, the investigations supporting this action, and
     the dismissal of several Foreign Service nationals cast a pall over effective manage-
     ment operations at Embassy Colombo, leaving a legacy of failed management
     controls and improper application of rules and procedures. The current executive,
     consular, and management teams face an enormous challenge of restoring this
     mission's operations and procedures to an acceptable level of effective management
     controls.

         The number of actions already taken by the management team -- whose collec-
     tive tenure at post at the time of the inspection could be measured in weeks, not
     months - was impressive, underscoring senior management's commitment to put
     overall embassy operations back on track.
                                                                Following two decades of civil
                                                            war that cost nearly 70,000 lives
                                                            and brought Sri Lanka near col-
                                                            lapse, a peace process was initiated
                                                            in early 2002. Support for the
                                                            peace process and strengthening
                                                            democratic institutions dominate
                                                            U.S. policy in Sri Lanka and are key
                                                            mission performance plan goals of
                                                            Embassy Colombo.


                       Map of Sri Lanka

         As the ceasefire holds and the peace process advances, there is growing opportu-
     nity for U.S. trade and investment with Sri Lanka. Embassy Colombo was taking
     advantage of these opportunities, and USAID operations - once in decline - were
     again on the rise.

         Consular issues were a pressing priority for the new front office. Immediately
     following the recent malfeasance-related arrests, new management began to institute
     long-needed controls. Most areas of vulnerability had been addressed. Regional
     consular oversight would further enhance overall consular management controls and
     procedures.

34   Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004
      Overall morale among Americans was high (most are newly arrived), with satis-
  faction expressed on housing, schooling, medical, and general life in Sri Lanka.
  Foreign service national morale, in contrast, poses a greater challenge primarily as a
  result of the events of the past year.




    Inspection of Embassy Dhaka, Bangladesh,
  ISP-I-04-04A

      Embassy Dhaka was a well-managed mission with very high morale, despite an
  exceedingly difficult operating environment. Extreme poverty, growing crime,
  dangerous traffic, widespread corruption, poor building standards, and periodic
  natural disasters complicate embassy operations.

       Counterterrorism, economic growth, and democratic development are proper
  MPP goals and underscore the importance of strong embassy engagement with the
  government, opposition groups, and the public. Public outreach as structured was
  inefficient and insufficient. These operations should be reoriented for greater
  effectiveness. Similarly, the embassy should also evaluate the utility of its commer-
  cial library operation to refocus staff on more effective commercial activities

       Allocation of workspace within the mission needed to be reviewed. The reorien-
  tation of programs at the current American Center should make it possible to cease
  use of that facility and move staff to
  more secure locations such as the
  chancery or General Services Office
  compounds.

      Overall management operations
  were functioning effectively, with all
  divisions receiving high marks from
  embassy personnel. The mission is to
  be commended for a range of inno-
  vative practices. International Coop-
  erative Administrative Support
  Services, one stop customer service,
  and foreign service national working
                                                              Map of Bangladesh
  groups had improved the effective-
  ness of operations and provided
  significant support to embassy staff.


Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004   35
         As the result of a consular environment permeated by fraud, management
     created a strong fraud prevention unit. Expanding visa workloads and new require-
     ments for visa issuance were exacerbated by a poorly configured workspace. The
     high number of entry-level rotational officers assigned to Dhaka's consular section
     reduced effectiveness. Conversion of one entry-level position to a mid-level supervi-
     sory position would provide much needed expertise.

         The American International School of Dhaka and the American Recreation
     Association are essential to attract staff to serve in Dhaka and to maintain embassy
     morale. The front office and the management section worked closely with both
     operations. The embassy expended considerable resources in its effort to ensure the
     viability of the school. Continued recreation area improvements are important,
     particularly to provide a secure environment for embassy youth.




       Inspection of Embassy Ulaanbaatar, Mongolia,
     ISP-I-04-14A

         Embassy Ulaanbaatar effectively conducts its mission in an environment of
     friendly, open relations. Mongolia supports U.S. efforts in the global war against
     terrorism. Small military contingents serve in Iraq and in Afghanistan.
                                                     A new front office team was providing
                                                 needed leadership to bring the embassy into
                                                 compliance with Department standard
                                                 operating procedures. However, financial
                                                 management was deficient, and a corrective
                                                 management controls statement with a plan
                                                 of action should be submitted. The em-
                                                 bassy can improve its consular services
                                                 through better workload management
                 Map of Mongolia
                                                 focusing on nonimmigrant visa processing.

         As staffing has more than doubled since 1997, Embassy Ulaanbaatar had gradu-
     ated from specific administrative support supplied by Embassy Beijing to regular
     regional support for consular, public affairs information resources, and medical
     services. However, the embassy still required outside support to improve manage-
     ment services, especially in the area of human resources, and to train relatively new
     staff members. OIG recommended that the embassy request such support from the
     Bureau of East Asian and Pacific Affairs, regional training centers, and nearby
     embassies.

36   Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004
      A high standard of housing that includes new townhouse and single-family
  dwellings in a landscaped compound raised morale among direct-hire Americans
  assigned to Embassy Ulaanbaatar, and OBO's "wellness project"2 for the chancery
  had significantly improved the work environment. With enlargement and accredita-
  tion of the international school, Ulaanbaatar is now a "family friendly" embassy,
  despite the harsh climate and isolation of the country.




    Inspection of Embassy Seoul, Republic of Korea,
  ISP-I-04-13A

      Embassy Seoul's officers had extensive contacts throughout Korean society and
  used them effectively in advancing U.S. interests. The country team was well coordi-
  nated; a supplementary series of regularly scheduled meetings insured interagency
  coordination and attention to all goals identified in the MPP. The Ambassador was
  influential among Washington policymakers, helping to shape U.S. strategy and
  tactics toward both North and South Korea.

      Embassy management did a fine job of coordinating with U.S. Forces in South
  Korea (USFK), the American military command headquartered in Seoul. The
  embassy and USFK used creative joint approaches to handle rising complaints about
  troop presence, to develop negotiating positions in the ongoing talks with the South
  Korean government over the future of the alliance, and to deal with issues relating to
  the embassy staff living in the 152 housing units located at the military base.

      The public affairs section had taken major steps to expand its outreach in South
  Korea. At the time of the inspection, American Corners were planned to soon
  function in public libraries in two of the four major provincial cities and there are
  plans for two others. A media-oriented Ambassador gave frequent interviews and
  speeches and had appeared on Internet news programs. Some internal reorganiza-
  tion would make staff utilization more efficient.

      The consular section was dealing well with the need to interview an increasing
  percentage of Korean visa applicants while maintaining minimum delays before
  visa issuance. The physical plant was being expanded to the maximum extent
  possible, and the embassy tried hard to explain to a skeptical public the link be-

  2
   The OBO “Wellness Program” is intended to address quality of life issues at high differential
  posts by upgrading the most pressing facilities’ improvement needs, i.e. “making them well.”
  Embassy Ulaanbaatar was one of two posts approved for the program in FY 2003, the first year
  OBO offered the program.


Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004   37
     tween the new procedures and U.S. security concerns in the wake of September 11,
     2001. The challenge was to avoid additional delays as the percentage of interviews
     rises further.

         Political and economic reporting was extensive and well done. Despite a frac-
     tious domestic political structure that made South Korean government decision
     making difficult, the embassy successfully advanced its political and economic
     objectives on the domestic scene and had been successful in obtaining greater
     Korean involvement in the international arena, including in Afghanistan and Iraq.

         The embassy had fought to seek a clear commitment from the South Korean
     government to allow construction to go forward on a new chancery and housing
     compound, and OBO had been supportive. Lack of progress at the time of the
     inspection was linked to South Korean sensitivity to public criticism, not to the
     embassy's lack of trying. Nonetheless, resolving the facilities issue is critical.

          Administration of this large and complicated mission was generally good. Some
     management controls needed strengthening. The information management team
     provided excellent support to embassy staff. There was room for improvement in
     operations and customer service attitudes, notably in the general services office.
     Family member hiring procedures needed to be formalized and made more transpar-
     ent.




       Inspection of Embassy Brussels, Belgium,
     ISP-I-04-02A

         At the time of the inspection, the ambassador of two years had just left post,
     with no replacement for the foreseeable future. Over the past two years, the former
     deputy chief of mission, now chargé d'affaires, is credited with defending U.S.
     interests during a particularly difficult period in bilateral relations along with other
     embassy staff. The chargé will now need to establish a regular dialogue with senior
     Belgian government officials.

         More tri-mission cooperation among the three missions -- Embassy Brussels, the
     U.S. Mission to the European Union and the U.S. Mission to the North Atlantic
     Treaty Organization -- was needed to improve coordination and explore economies
     of scale in public diplomacy and other areas.




38   Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004
      The consular section was understaffed, and the practice of issuing passports to
  American citizens resident in Libya, based on information collected at the U.S.
  Interests Section at the Belgian Embassy in Tripoli, created a vulnerability. The joint
  administrative services section provided excellent administrative services to all three
  U.S. missions in Belgium. While embassy staffing was generally rightsized, repro-
  gramming several locally employed staff positions to the administrative section
  would further enhance services.



    Inspection of the U.S. Mission to the
  European Union, ISP-I-04-15A

      The U.S. Mission to the European Union (USEU) does an outstanding job of
  advancing U.S. interests across the full range of important economic and political
  issues with the European Union (EU). It is well positioned to deal with the expan-
  sion of the EU from 15 to 25 member countries in 2004.

      Mission leadership had a clear vision of the significance of the EU's growing
  role and aggressively urged more U.S. attention to the opportunities this presents.
  The mission's well-informed reporting had become more user-friendly with a focus
  on shorter and more condensed reports.

      The mission had substantially expanded its support to and cooperation with
  bilateral U.S. embassies in EU member and applicant countries. Staffing levels were
  appropriate, but a modest increase in public diplomacy resources could enable the
  mission to explain U.S. policies more effectively. The joint administrative services
  section of Embassy Brussels provided solid administrative support; however, visitor
  support needed clarification. Morale was generally good; however, the mission must
  improve communication with office management staff and ensure they are treated
  with professional courtesy.



     Inspection of the U.S. Mission to the North
  Atlantic Treaty Organization, ISP-I-04-16A

      The U.S. Mission to the North Atlantic Treaty Organization (USNATO) has
  effectively led the U.S. effort to transform the North Atlantic Treaty Organization
  (NATO) to deter and defeat new threats, including those outside its traditional area.
  OIG found that Department and Department of Defense staffs coordinated well


Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004   39
     despite interagency disagreements in Washington. Also, despite long working hours
     and constant pressure, the political section attracted top-flight people by paying
     increased attention to good management and staff needs.

         USNATO was pursuing an aggressive public diplomacy program to address
     increasing skeptical and hostile public opinion in Europe. The public diplomacy
     section was helping NATO improve its own public diplomacy operations.




        Inspection of Embassy Luxembourg, ISP-I-04-10A

         Embassy Luxembourg's energetic leadership and small staff pursue activist and
     successful diplomacy and commercial advocacy. Progress has been made in balanc-
     ing an ambitious agenda with limited embassy resources.

         As a special embassy program post with limited reporting resources, Embassy
     Luxembourg needed help to prioritize the constant stream of European and NATO
     related demarches. With the arrival of a public affairs officer in 2004 the embassy's
                                                     capacity to address increasing negative
                                                     public perceptions of U.S. policies will
                                                     be enhanced. Department support is
                                                     needed to develop an effective public
                                                     diplomacy strategy for Embassy
                                                     Luxembourg.

                                                    Management operations were
                                                stretched to the breaking point, in part
                                                because of ongoing and planned con-
                                                struction projects and an inexperienced
                 Map of Luxembourg              administrative section. Long-term
     temporary duty management officer support was needed to ensure completion of
     construction and other needed projects. Additional facilities maintenance support
     was also needed.




40   Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004
    Inspection of the European Logistical
  Support Office, Antwerp, Belgium, ISP-I-04-08

      The European Logistical Support Office (ELSO) effectively carries out its
  mission, which is to arrange and track shipments of household goods and personal
  effects, vehicles, and equipment and supplies to and from embassies and consulates
  primarily in Europe, Africa, and the Middle East. In 2003, ELSO arranged 10,400
  shipments and met its shipping performance standards 95 percent of the time.

       Embassies praised ELSO's expedited logistics program for reducing the time and
  cost to obtain needed items. The budget and fiscal section audits and pays transpor-
  tation invoices and collects ELSO charges. In 2002 and 2003, the section identified
  and recovered $450,000 and $209,000 respectively, in contractor overcharges. The
  systems administrator effectively managed and controlled incoming and outgoing
  communications and supported ELSO's systems. Connectivity through Embassy
  Brussels was seamless and effective. Although fiscal operations' efficiency was
  reduced during the Department's accounting system conversion, the new system
  vastly improved accuracy and accountability for shipping charges at the post level.




    Management Assessment Review of
  Embassy Dili, East Timor, ISP-I-04-05A
      Embassy Dili is nearing the end of a period of inadequate facilities and staffing
  vacancies. The first part of a new office building should be ready for occupancy in
  April 2004; the embassy's full complement of Department Americans was present
  for the first time ever at the end of
  November 2003.

      The Ambassador was achieving
  important public diplomacy goals
  despite the absence of support staff or
  specific planning. Post management
  needed to adopt a more structured
  framework to discuss and pursue
  embassy objectives. Although Embassy

                                                               Map of East Timor




Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004   41
     Dili had good contact with all elements of East Timor society, embassy reporting
     was scarce and contained little analysis.

         Embassy Dili requires a strong administrative presence at this point in its devel-
     opment. Adding a management/consular position would enable Embassy Dili to
     improve and institutionalize its operations. Additional modular housing was needed
     for American officers and their families.




42   Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004
                                        AUDITS

      Contracts and Grants


      Review of AYUSA International, AUD/CG-04-09

      At the request of the Bureau of Educational and Cultural Affairs (ECA), OIG
  reviewed costs claimed by AYUSA International to determine whether the grantee
  (1) adequately accounted for federal funds, and (2) complied with applicable federal
  laws and regulations related to the terms and conditions of the grant. In addition,
  OIG reviewed the indirect cost rate per student claimed for FY 2002 to determine
  the reasonableness, allowability, and allocability of the indirect cost allocation
  method. OIG found the following:
  •    The grantee, in general, adequately accounted for federal funds and could
      segregate costs by grant in its accounting system. However, the grantee re-
      ported budgeted costs instead of incurred costs on its quarterly financial
      reports submitted to the Department. In addition, the grantee did not always
      comply with the terms and conditions of the agreement. Specifically, the
      grantee did not document cost share amounts or use timesheets to support
      employees' time worked on federal programs. As a result, OIG questioned
      about $226,000 of direct costs, of which $20,543 were classified as unsup-
      ported.
  •    The grantee's FY 2002 indirect cost rate per student was reasonable, allowable,
      and allocable to U.S. government grants. However, the grantee does not adjust
      the indirect costs billed to the Department once the actual year-end rate is
      determined.

     OIG recommended that ECA require the grantee to comply with the terms and
  conditions of its grant agreements, reimburse the Department for unallowable costs,
  and provide additional documentation for the unsupported costs.




Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004   43
              Quality Control Review of a Public Accounting Firm

             As the oversight agency for a Department grantee, OIG performed a
        quality control review of an audit performed by a public accounting firm on
        the financial statements of the grantee. Based upon its audit, the public
        accounting firm opined that the grantee's financial statements presented
        fairly, in all material respects, the grantee's financial position.
             The objective of OIG's quality control review was to ensure that the
        public accounting firm performed its audit in accordance with the require-
        ments of generally accepted auditing standards as promulgated by the
        American Institute of Certified Public Accountants. Based upon its review,
        OIG concluded that the public accounting firm's performance of the audit
        failed to meet minimum generally accepted auditing standards in that the
        public accounting firm was not independent of the grantee within the
        meaning and spirit of the auditing standard on independence. Also, the
        public accounting firm failed to meet the auditing standard on sufficiency of
        evidential matter to opine that the grantee's financial statements fairly
        presented its financial position and results of operations. OIG referred the
        results of its quality control review to the relevant state board for public
        accountancy for action.




        Review of the National Democratic Institute for
     International Affairs Indirect Cost Rates for Fiscal
     Years 1999, 2000, 2001, and 2002, AUD/CG-04-10

         At the request of the Bureau of Administration's Office of Logistics Manage-
     ment, Office of Acquisitions Management and as part of the overall audit of the
     National Endowment for Democracy, the Office of Audits conducted a review of
     the indirect costs reported by the National Democratic Institute for International
     Affairs (NDI) for fiscal years ending September 30, 1999, 2000, 2001, 2002. OIG's
     primary purpose was to determine whether the indirect cost rate structure complied
     with applicable regulations and recommend final rates for the stated periods.

         OIG found that the rates did not comply with OMB Circular A-122, Cost
     Principles for Non-Profit Organizations. For example, NDI did not submit a new
     indirect cost rate proposal within the required six months of its fiscal year-end, nor
     did it break out the indirect cost component into the required facilities and adminis-



44   Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004
  trative categories. OIG also identified costs in the indirect cost pool that are unal-
  lowable as per OMB Circular A-122. Consequently, OIG questioned costs of
  $45,124 for advertising and public relations costs.

      OIG recommended that the bureau use OIG's audit-determined rates to finalize
  NDI's indirect cost rates for the stated periods and require NDI to comply with
  Circulars A-122 and A-133, Audits of States, Local Governments, and Non-Profit
  Organizations, and make necessary accounting adjustments and reimburse the
  questioned costs.




    Review of the National Committee on United
  States-China Relations, Inc., AUD/CG-04-20

      At the request of the Bureau of Educational and Cultural Affairs, OIG reviewed
  the National Committee on United States-China Relations, Inc. claimed indirect cost
  rates. The grantee's accounting system was adequate to accumulate and report
  indirect costs and allocate costs equitably among final cost objectives. OIG did
  identify several inconsistencies and errors in the grantee's claimed rate calculations,
  and OIG has made appropriate adjustments in the claimed rate calculations. OIG
  recommended that the Bureau of Administration's Office of Logistics Management,
  Office of Acquisitions Management determine the effect of these adjusted rates, if
  any, on the grantee's claimed grant costs.




    Review of the Center for International Private
  Enterprise Indirect Cost Rates Fiscal Years 2001
  and 2002, AUD/CG-04-21

      At the request of the Bureau of Administration's Office of Logistics Manage-
  ment, Office of Acquisitions Management and as part of the overall audit of the
  National Endowment for Democracy, OIG conducted a review of the Center for
  International Private Enterprise, Inc.'s (CIPE) indirect cost rates for FYs ending
  September 30, 2001, and 2002. OIG's primary purpose was to determine whether
  the indirect cost rate structure complied with applicable regulations and recommend
  final rates for the stated periods.




Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004   45
         OIG found that the indirect cost rates reported by CIPE in its annual audit
     reports for the stated periods complied with applicable regulations. Moreover,
     tracing components of the indirect cost rates to the audited financial statements did
     not disclose any matters that significantly affected the indirect cost rates. OIG
     advised that the bureau use the recommended rates determined during this review in
     finalizing the indirect cost rates.



         Procurement, Property and Administrative Support


       Review of Department of State's Unauthorized
     Commitments and Ratification Process, AUD/PPA-04-01

         OIG reviewed whether Department officials were adhering to policies and
     procedures regarding unauthorized commitments.3 Specific objectives were to:
     assess management coordination for preventing unauthorized commitments; exam-
     ine contract susceptibility to unauthorized commitments; and analyze Department
     training to prevent unauthorized commitments.

         Between FY 1997 and June 2002, the Department had 122 unauthorized com-
     mitments totaling about $6.8 million. In recent years, the Department has issued
     several guidance documents, created a training program to educate employees, and
     given copies of ratifications to the bureau executive offices where unauthorized
     commitments occurred to increase personal accountability. Despite these improve-
     ments, unauthorized commitments continued to occur.

         OIG's assessment pointed to several shortcomings. Unauthorized commitments
     were often ratified even though program offices and diplomatic missions did not
     ensure that ratification requests included all the information required by regulations.
     For most of the 122 ratification requests, at least one piece of information was
     omitted. In addition, Department bureaus had about $4 million in recurring unau-
     thorized commitments from FY 1997 to June 2002 because program offices and


     3
       An unauthorized commitment is an agreement that is not binding solely because the government
     representative lacked the authority to enter into that agreement (FAR 1602-3(a)). Both federal
     and Department regulations allow for ratification of an unauthorized commitment in certain
     circumstances to create an enforceable contract.



46   Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004
  diplomatic missions did not implement required corrective actions to prevent re-
                                          A
                                          UDITS
  peated violations. OIG also found there is little deterrent to making unauthorized
  commitments because official disciplinary action is almost never taken even though
  regulations state that there are consequences for violations.

      OIG determined that contracts for recurring goods and services were often
  susceptible to unauthorized commitments because of the limited funding available
  during periods of continuing resolution. These contracts account for 26 percent of
  the 122 requests and 66 percent of the $6.8 million.

      Finally, OIG found that three out of four relevant training courses did not
  adequately cover unauthorized commitments and that personnel whose lack of
  training clearly contributed to an unauthorized commitment were not required to
  take training.

      OIG recommended that the Department do the following: require a more active
  role for bureaus in preventing unauthorized commitments; issue guidance concern-
  ing the potential disciplinary actions to be taken and guidance on alternatives for
  funding recurring goods and services during continuing resolutions; and require
  training when a lack of it contributes to making unauthorized commitments.




     Review of Administrative Operations at Embassy
  Colombo, Sri Lanka, AUD/PPA-04-03

      OIG, at the request of the former Ambassador, reviewed administrative opera-
  tions, financial accounts, and management controls at Embassy Colombo, Sri Lanka.
  The Ambassador also requested an independent evaluation of specific procurement
  actions, including the sale of the former Marine residence. The report provided
  assistance to the post to strengthen management controls. Some of the issues and
  findings of the review were as follows:
  •   Financial and management controls were weak or nonexistent, which allowed
      unsupported claims for travel vouchers and dependent education expenses.
  •   Procurements were not fairly competed, which resulted in higher prices and
      substandard work.
  •   Warehouse operations had management control deficiencies, most of which
      had been corrected shortly before OIG conducted its review.




Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004   47
         OIG found that the sale of the former Marine security guard residence had
     questionable insider dealings that may have resulted in a lower sales price. In addi-
     tion, the human resources office had management weaknesses in its operations and
     record keeping. Lastly, property management and housing deficiencies existed that
     warrant corrective action. A more detailed OIG inspection of the post in October
     2003 confirmed that the post had corrected many of the above deficiencies.




       Review of Allegations Regarding the Foreign
     Post Telephone Contract, AUD/PPA-04-04

         OIG reviewed allegations of mismanagement involving a Department contract
     to upgrade U.S. embassy communications systems worldwide. Specifically, a hotline
     allegation stated that the Department did not provide adequate supervision of the
     contract; the new telephone systems cost far more than comparable commercial off-
     the-shelf systems; and the installed new systems had performance problems. It also
     was alleged that there was no direct Department inspection of newly installed
     systems to ensure that they met contractual requirements.

         The Foreign Post Telephone Division, Bureau of Information Resource Manage-
     ment (IRM) has responsibility for managing the replacement of public telephone
     systems at all foreign posts. In August 2001, DynCorp Systems & Solutions, LLC
     (DynCorp), was awarded the contract to continue the installation of Nortel Meridian
     telephone systems. In a memorandum of agreement with the Department, the 38th
     Engineering Installation Group, U.S. Air Force, was to provide engineering expertise
     in monitoring the contract.

          OIG surveyed the Department's Regional Information Management Center
     (RIMC) telephone technicians to obtain information on DynCorp's contract perfor-
     mance issues and assess the operation and maintenance of the newly installed
     systems. The survey, developed with the help of IRM headquarters and field offi-
     cials, resulted in responses from 25 of the 38 RIMC technicians (66 percent).

         OIG found no evidence of impropriety relating to the management and imple-
     mentation of the contract. The 38th Engineering Installation Group of 19 full and
     part-time contracting, engineering, and financial personnel provided contract super-
     vision at a cost to the Department for travel and per diem only. No payroll costs
     were charged. If the Department had to hire its own personnel, annual estimated
     costs would be about $650,000, not including fringe benefits.



48   Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004
      For the second allegation, OIG determined that all items are purchased as
  commercial off-the-shelf items except for the telephone. The Nortel system was
  selected because it supports all commercial off-the-shelf items and produces the
  telephone used by embassies. In addition, each system is designed for the specific
  post where it is to be installed. OIG concluded that the cost of commercial off-the-
  shelf equipment procured through the contract was comparable to standard com-
  mercial off-the-shelf items.

      For the third allegation, OIG found that the new systems were properly installed,
  with few subsequent performance problems. In addition, most of the RIMC tele-
  phone technicians that assist the posts in systems maintenance and troubleshoot
  technical problems rated DynCorp's installation as good to excellent.

     For the final allegation, OIG identified sufficient controls in place to ensure that
  proper inspections had been occurring. The 38th Engineering Installation Group's
  monitoring was more than adequate as evidenced by the Group Meritorious Honor
  Award bestowed by the Department.

      In summary, OIG received positive responses from the technicians on the
  performance, reliability, and adequacy of the Nortel Meridian systems. Some RIMC
  technicians suggested that post technical personnel needed more training to maintain
  properly and utilize fully the new telephone systems. RIMC technicians also believed
  that their post visits should be scheduled immediately after installation to train post
  personnel and identify issues before they become problems. The procedure was to
  wait until there were problems before dispatching a technician.




    Review of Electrical Engineering Services
  Procurement, AUD/PPA-04-13

       OIG received a hotline complaint alleging contract irregularities concerning a
  $1.8 million contract that provided worldwide electrical engineering services to the
  Department. Overall, OIG identified contract administration deficiencies that also
  have been reported in prior OIG audits: contracting officer's representatives lack the
  required skills to monitor contract provisions and protect government interests;
  contracting officer's representatives lack an appointment by the contracting officer
  and yet are certifying contractor invoices for payment; the Department incurs penal-
  ties because of late payment on the invoices submitted by the contractor; and con-
  tract file documentation is inadequate. OIG also found, and Department procure-



Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004   49
     ment officials agreed, that an inappropriate contract vehicle was used to procure the
     electrical engineering services. As a result, federal and Department acquisition
     regulations and requirements for full and open competition were not met. In addi-
     tion, OIG has concerns that the winning contractor may have inappropriately re-
     ceived advance information on the proposed statement of work that was not avail-
     able to other prospective bidders.

         OIG confirmed the appearance of contract irregularities. The contractor's
     accounting system was poor and resulted in untimely submission of invoice charges
     and cases of duplicate billings and underbillings against the contract. Neither
     Department contracting officials nor the contractor had a good command of con-
     tract provisions, which resulted in unauthorized labor charges for $17,000, unap-
     proved contract modifications totaling almost $300,000, and underbillings of more
     than $75,000. Ultimately, the contractor was able to provide receipts and supporting
     documentation for invoices submitted to the Department for payment. However,
     OIG does not agree that actions taken by the former contracting officer were suffi-
     cient to close out the contract. OIG is recommending that the findings in this
     review be considered in closing out the contract at the soonest date possible. Finally,
     Department records were inconclusive, and OIG could not confirm the allegation
     that contract employees retained government equipment. The Department agreed
     with OIG recommendations and is determining allowable contractor costs.



        Program Reviews


       Independent Attestation Review of Annual
     Accounting of Drug Control Funds by the
     Department of State, AUD/PR-04-11

          OIG reviewed the chief financial officer's FY 2003 detailed accounting submis-
     sion to the Director of the Office of National Drug Control Policy (ONDCP). The
     chief financial officer prepared the submission in compliance with ONDCP Circu-
     lar: Annual Accounting of Drug Control Funds, dated April 18, 2003. This submis-
     sion is the responsibility of the Department.




50   Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004
      OIG conducted its review in accordance with attestation standards established by
  the American Institute of Certified Public Accountants as specified in Section 6 of
  the Office of National Drug Control Policy circular. The scope of a review is
  substantially less than an examination, which expresses an opinion on the submis-
  sion. Accordingly, OIG does not express such an opinion.

      OIG's review of the accounting submission brought up nothing that caused
  OIG to believe that the assertions presented do not, in all material aspects, reliably
  represent the FY 2003 obligation data presented in the submission.



      Financial Management


    Application of Agreed-Upon Procedures:
  Retirement, Health Benefits, and Life Insurance,
  AUD/FM-04-06

      Under OIG's direction, a contractor performed required procedures solely to
  assist the Office of Personnel Management in assessing the reasonableness of
  Retirement, Health Benefits, and Life Insurance withholdings and contributions as
  well as enrollment information submitted by the Department of State via the Semi-
  annual Headcount Report. The contractor did not identify any material differences.




     Audit of U.S. Department of State 2003 and 2002
  Principal Financial Statements, AUD/FM-04-12

      The Chief Financial Officer’s Act, as amended, requires that the Department's
  principal financial statements be audited. The objectives of the audit are to report
  on whether the financial statements fairly present the Department's financial position
  and results of financial operations in accordance with generally accepted accounting
  principles, to determine whether the Department had an internal control structure
  that provided reasonable assurance of achieving internal control objectives, and to
  determine whether the Department complied with applicable laws and regulations.




Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004   51
         OIG's contractor issued an unqualified opinion on the Department's 2003 and
     2002 principal financial statements. Although an unqualified opinion was issued, the
     report brings to management's attention concerns about security over the sensitive
     but unclassified network; the inadequacy of internal controls over the management
     of undelivered orders and the collection and reporting of managerial cost account-
     ing information; and the inadequacy of the Department's financial and accounting
     system, which is both an internal control weakness and an issue of noncompliance
     with several laws and regulations.




        Agreed-Upon Procedures Report on Federal
     Intragovernmental Activity and Balances,
     AUD/FM-04-14

         The Department of the Treasury annually prepares and submits to the President
     and Congress an audited financial statement covering all executive agencies. Each
     agency is required to furnish certain financial and operational information to the
     Department of Treasury through the federal agencies' centralized trial-balance
     system (FACTS). Agencies must reconcile and confirm intragovernmental balances
     with their trading partners and ensure these balances agree with FACTS reporting
     and audited financial statements before submitting year-end data to Treasury.

         Under OIG's direction, a contractor performed required procedures solely to
     assist Treasury, the General Accounting Office (GAO), and OMB with accounting
     for and reconciling intragovernmental activity and balances in the preparation of
     agency and governmentwide financial statements and reports. The contractor
     reviewed the chief financial officer representations for federal intragovernmental
     activity and balances and reconciliations, compared the amounts in the audited
     agency financial statements to the amounts in the FACTS reports, and reviewed the
     status of disposition of identified differences. The contractor noted no discrepan-
     cies.




52   Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004
    Agreed-Upon Procedures for the Final
  Account Groupings Worksheet, AUD/FM-04-15

      Treasury annually prepares and submits to the President and the Congress an
  audited financial statement covering all executive agencies. Each agency is required
  to furnish certain financial and operational information to Treasury through the
  federal agencies' centralized trial-balance system (FACTS). The chief financial
  officer of the agency must compare the information submitted through FACTS with
  the agency financial statements and explain any differences identified.

      Under OIG's direction, a contractor performed required procedures solely to
  assist Treasury and GAO in the preparation and audit of the governmentwide
  financial statements. The contractor identified no material differences.




    Audit of Payments Made Without an Obligation,
  AUD/FM-04-16

      OIG reviewed payments made without an obligation to determine whether the
  Department had adequate controls over payments that it processed when an obliga-
  tion had not been established in its accounting system, the central financial manage-
  ment system (CFMS).

      OIG found that the Department did not have adequate controls over processing
  payments made without an obligation. The Bureau of Resource Management (RM)
  did not have the documentation required to support a significant number of the
  payments that OIG reviewed. In addition, RM may have processed some payments
  without an obligation unnecessarily because of a lack of communication with the
  bureaus. As a result, the Department could not ensure that the payments it made
  without an obligation were proper and correct.

     OIG recommended that RM develop detailed instructions for completing and
  maintaining documentation to support payments made without an obligation and a




Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004   53
     process to ensure that these instructions are followed. In addition, OIG recom-
     mended that RM develop, and provide to the Department's bureaus, procedures to
     ensure that obligations are recorded in CFMS before payments are made.




        Audit of Duplicate Payments, AUD/FM-04-17

        OIG reviewed the Department's payment processing to determine whether the
     Department was effectively identifying and following up on potential duplicate
     payments.

         Although the Department does have a duplicate payment program in place, OIG
     found that more potential duplicate payments existed than the Department had
     identified. Also, there was inadequate evidence that the Department took sufficient
     action to follow up on the potential duplicate payments it did identify. As a result,
     the Department was not aware of all potential duplicate payments on which it
     should have followed up and may not have collected all the funds owed for the
     duplicate payments it identified.

        OIG recommended that the Department examine a larger universe of payments
     and improve the database queries used to identify potential duplicate payments. In
     addition, OIG recommended that the Department follow up on the additional
     potential duplicate payments OIG identified and that it maintain records to docu-
     ment its follow-up activities of potential duplicate payments.




        Audit of the Vendor Reference Table, AUD/FM-04-18

        The Department's Central Financial Management System (CFMS) will not
     process a payment to a vendor unless the vendor has been established in the CFMS
     vendor reference table. The objective of this audit was to determine whether the
     Department had adequate controls for establishing and maintaining vendors in the
     vendor reference table.

        OIG found that the Department did not have adequate controls over the vendor




54   Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004
  reference table. The Department did not always verify vendor information before it
                      I
                      NFORMATION ECHNOLOGY        T
  was entered into the table. In addition, the table contained a significant number of
  unnecessary vendor records and records with errors. OIG found that there were no
  formal policies and procedures that provided a standard format for entering vendor
  information into the table or that required thorough, periodic reviews and updates
  of the table. As a result, fraudulent vendors could have been added to the table, and
  unnecessary records could have been used to make improper payments.

      OIG recommended that the Department develop and implement policies and
  procedures that ensure the validity of vendors before they are entered into the
  vendor reference table; that include consistent standards for creating vendor codes
  and entering data into each vendor record field and guidelines for deactivating and
  archiving vendor records; and that provide a process for thorough, periodic reviews
  and updates of the table. OIG also recommended that the Department review the
  table, deactivate or archive unnecessary records, and identify and correct errors.




     Status of the Department's Remediation
  Plan for the Federal Financial Management
  Improvement Act, AUD/FM-04-19

       Agency financial management systems must substantially comply with the
  Federal Financial Management Improvement Act of 1996 (FFMIA) requirements.
  If they do not, the agency must establish a remediation plan, which includes the
  resources, remedies, and intermediate target dates to bring the systems into substan-
  tial compliance. The Department established a remediation plan in March 2000 to
  bring its systems into compliance by September 2003, and it updated the plan in
  October 2001.

      Under FFMIA, OIG is required to report in its semiannual report to the Con-
  gress instances when and reasons why an agency has not met the intermediate target
  dates established in the remediation plan. OIG reviewed the Department's progress,
  as of May 2003, in meeting the intermediate target dates it had established. The
  Department had made considerable progress in its efforts to comply with FFMIA by
  completing 71 percent of its remediation plan projects and, as a result, reducing its
  degree of noncompliance. However, OIG found that the Department had extended
  intermediate and completion target dates for three projects: Business Continuity and
  Contingency Plans, Information Systems Network Security, and Central Financial
  Planning System (CFPS). Extended target dates for the first two projects were the



Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004   55
     result of delays in project initiation and adding steps deemed critical to the project.
     The Department restructured the third project, CFPS, and established new mile-
     stones and target dates. The above projects are not expected to be completed until
     FY 2004 and FY 2005. As a result, the Department was not in substantial compli-
     ance with FFMIA as of its September 2003 target.

          Additionally, in the Audit of the U.S. Department of State 2003 Principal Finan-
     cial Statements (AUD/FM-04-12, Dec. 24, 2003), OIG's contractor reported that the
     Department's remediation plan also needed to specifically address systems security
     and management of grants and other types of federal assistance.




56   Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004
                   INFORMATION TECHNOLOGY


      As reported in the September 2003 OIG Semiannual Report to Congress, OIG
  developed a multidisciplinary approach to the inspection process as an outgrowth of
  an organizational self assessment. This approach incorporated key aspects of OIG's
  traditional post, security and intelligence oversight, and information technology
  inspections.

       OIG evaluated the information technology (IT) security and information man-
  agement (IM) programs in the Department. More specifically, OIG inspected the
  management, operational, and technical controls, and assessed the effectiveness of
  the information management policies and procedures implemented by seven over-
  seas missions -- Ulaanbaatar, Mongolia; Seoul, Republic of Korea; Dhaka,
  Bangladesh; Colombo, Sri Lanka; Kathmandu, Nepal; Brussels, Belgium; and the
  United States Mission to the European Union -- and four domestic bureaus, includ-
  ing the Bureau of Near Eastern Affairs, the Bureau of Educational and Cultural
  Affairs, the Bureau of South Asian Affairs, and the Bureau of Economic and Busi-
  ness Affairs. These controls included IT security and IM policies, procedures,
  activities, and hardware and software configuration settings. OIG found many
  opportunities for improving IT security and IM at all overseas missions and domestic
  bureaus. In general, the missions and bureaus could significantly improve the follow-
  ing:

  •   Management controls by developing and implementing information systems
      security program plans to alleviate potential vulnerabilities and risks, creating
      and implementing strategic plans that outline long-term IT goals and objec-
      tives, and ensuring independent information systems security oversight.
  •   Operational controls by developing information systems contingency plans to
      protect systems from a variety of disruptions, increasing the monitoring of
      information systems to prevent intrusion, and issuing standard procedures for
      the operation of information systems.
  •   Technical controls by managing the identification and authentication proce-
      dures, logical access constraints, and audit trails.




Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004   57
         The overseas missions and the domestic bureaus have concurred with the OIG
     recommendations and agreed to implementation actions to address the reported
     deficiencies. Listed below are summaries of IT inspections at overseas posts during
     this reporting period.




        Embassy Dhaka, Bangladesh, ISP-I-04-04A

          Strategic and budgetary planning and the development of information systems
     documentation will assist the mission in mitigating the inherent problems associated
     with undependable computer systems and telecommunications service. OIG noted
     that Embassy Dhaka does not have a lifecycle schedule for all embassy-funded IT
     equipment, nor does it have an embassy-specific IT budget plan that includes
     lifecycle costs. OIG recommended that Embassy Dhaka develop a strategic plan to
     assist with future IT planning.




        Embassy Kathmandu, Nepal, ISP-I-04-09A

          Strategic planning, budgetary planning, and documentation within IM are not
     adequate to meet the challenges of providing systems support to an expanding
     mission in a country where power and telephone service are unreliable. OIG
     recommended that Embassy Kathmandu develop an IT strategic plan, including a
     lifecycle schedule for replacement of embassy-funded information systems center
     and information program center equipment, and integrate the strategic plan with the
     budget plan.




        Embassy Ulaanbaatar, Mongolia, ISP-I-04-14A

         Contingency planning is designed to ensure continuity of operations under
     adverse conditions. Contingency planning also addresses the ability to recover from
     a disruption and provide service sufficient to meet the minimal needs of users. OIG
     recommended that Embassy Ulaanbaatar develop and implement a contingency plan




58   Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004
  for its unclassified and classified information systems. OIG also recommended that

                                  I
  Embassy Ulannabaatar either disconnect or obtain the appropriate Department
  waiver for its additional InternetNVESTIGATIONS
                                      connection.




    Inspection of Embassy Seoul, Republic of
  Korea, ISP-I-04-13A

    OIG recommended that the information management staff more adequately
  monitor compliance with information management policies and procedures.




     Inspection of the Bureau of Near Eastern
  Affairs, ISP-I-04-11

      OIG reported that NEA needs to develop a comprehensive strategic plan that
  outlines IT goals and objectives and takes a long-term approach, and not current
  reactive, short-term focus. OIG noted that the bureau IT strategic plan should
  include budgetary, tactical, operational, and staffing plans.




    Inspection of the Bureau of Educational
  and Cultural Affairs, ISP-I-04-07A

      OIG made recommendations to ensure that ECA and the Office of Information
  Technology Services in the Bureau of International Information Programs develop
  up-to-date guidance or a memorandum of understanding outlining IT support
  responsibilities, create a training program for IT support staff, document a policy or
  practice for the replacement of IT equipment, establish security incident reporting
  procedures, create and protect logs, and perform random checks.




Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004   59
60   Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004
                              INVESTIGATIONS


      Employee Theft
      An employee of the Department was recently arrested and convicted of theft of
  government equipment from a Department warehouse. An OIG investigation and
  undercover operation determined that the employee had stolen approximately
  $20,119 in equipment that he pawned for cash. Between January and April 2003, an
  OIG Special Agent worked undercover in the warehouse and determined that the
  employee was acting alone. Subsequently, the warehouse employee was interviewed
  and admitted stealing 55 items from Department warehouses since April 2000 and
  pawning them for extra cash. Seven items valued at $2,634.42 were recovered during
  the investigation. The employee was indicted by a federal grand jury in the Eastern
  District of Virginia and charged with 4 counts of theft of government property in
  violation of 18 USC 641. On October 17, 2003, the employee was sentenced to
  three years supervised probation, ten days incarceration, and ordered to pay
  $17,484.95 in restitution to the Department.


      Types of Cases




Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004   61
        Follow-up Actions


        Employee Embezzlement Scheme

          An OIG investigation into the theft of $2.7 million in Post Assignment Travel
     funds by a former FSN from the U.S. Embassy, Lusaka, Zambia, has resulted in the
     filing of a 114-count criminal indictment against three Zambian nationals with
     alleged ties to the scheme. Acting on information provided by OIG, Zambian
     prosecutors in the Chikwa Subordinate Court of Lusaka have charged the three
     subjects with receiving stolen property, theft by a servant, false and fictitious ac-
     counting, and destroying account documents -- charges with potential prison terms
     of seven years and over $2 million in fines. This complex scheme involved the
     laundering of stolen funds through bogus business accounts set up at banks around
     the world. In addition, the U.S. Attorney's Office in the District of Columbia has
     issued an arrest warrant for a key member involved in the scheme. Extradition is
     being held in abeyance pending the outcome of the Zambian charges. OIG, in
     coordination with Embassy Lusaka's Regional Security Office, the Zambian Police
     Service, the Federal Bureau of Investigation, and the U.S. Department of Justice's
     Office of International Affairs, continues to pursue additional charges and subjects
     in this matter. (See OIG Semi-Annual Report, October 1, 2002, to March 31, 2003,
     pp. 62-63)


        Geographic Distribution of Ongoing Investigations
                                       Near East and South Asia ...................... 1%

                                       East Asia and Pacific Islands ................. 1%

                                       Africa ..................................................... 22%

                                       Europe .................................................. 10%

                                       Western Hemisphere ............................ 10%

                                       Domestic............................................... 56%

                                       Total .................................................... 100%




62   Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004
      Hotline
      The OIG Hotline, operated by the Office of Investigations, is a prompt, effec-
  tive channel for employees and others to report incidents of fraud, waste, abuse, and
  mismanagement to the Inspector General. Below is a summary of Hotline activity
  for the Department and BBG.




                                         Held for action within OIG                 12

                                         Referral to other offices for action      128

                                         No action Necessary                        44

                                         Total Allegations received                184




Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004   63
64   Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004
   APPENDIX 1: INVESTIGATIVE ACTIVITIES
  ad                                                           Total Judicial Actions                    16
  Workload                                                   Total Judicial Actions                           19

  Cases pending 9/30/03                             37        Criminal
  New cases opened                                  23        Prosecutive referrals                             7
  Cases closed                                      12        Prosecutive declinations                          5
  Cases pending 3/31/04                             48        Prosecutive dismissals                            0

  Preliminary inquiries pending 9/30/03             18        Acquittals                                     0
  Preliminary inquiries opened                      19        Indictments                                    3
  Preliminary inquiries closed                      14        Convictions                                    1
  Preliminary inquiries                                       Sentencings                                    1
       converted to cases                            8        Time sentenced                           10 days
  Preliminary inquiries pending 3/31/04             15        Time probation                         36 months

                                                              Court-ordered fines                           $0
  Total Administrative Actions                       5        Court-ordered restitutions            $17,484.95

  Admonishments                                      0        Civil
  Counseling                                         0        Referrals                                        1
  Curtailment                                        0        Declinations                                     1
  Demotions                                          0        Complaints                                       0
  Reimbursements                                     0        Judgments                                        0
  Reprimands                                         0        Court-ordered fines                             $0
  Resignations                                       1        Recoveries                                       2
  Suspensions                                        2        Total judgments
  Terminations (DOS employees)                       0         and recoveries                                 $0
  Terminations (Contract employees)                  1
  Administrative referrals                           1
  Program Fraud and
    Civil Remedies Act referrals                     0
  Savings                                            0



                     Administrative recoveries                           $ 2,634.42
                     Judicial recoveries                                 $ 17,484.95
                     Total Investigative Recoveries                      $ 20,119.37



  This
  This appendix reflects investigative statistics for the Department only; investigative statistics for BBG are in
  Appendix 1 of the BBG section of this report. The statistics and narrative case descriptions of investigative
  appendix
  activities appearing in this Semiannual Report are the result of reports received from prosecutive and
  reflects
  administrative authorities. The final actions may be changed at a later date by individual use of administrative
  and judicial appeals processes.
  investigative
  statistics
  Indictments   include formal criminal charges brought against a subject. The manner in which charges are
  brought varies from country to country. Judicial recoveries include recoveries from judicial actions, including
  for    the
  court-ordered  fines and restrictions and civil judgments and recoveries. Administrative recoveries include
  recoveries from administrative actions, such as reimbursements and savings.



Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004                     65
66   Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004
               APPENDIX 2: REPORTS ISSUED


                               Security and Intelligence Oversight

Inspections

SIO-I-04-01             Limited-scope Security Inspection of
                        Embassy Mexico City and Constituent Posts, Mexico                        01-04
SIO-I-04-02A            Security Inspection of Embassy Brussels, U.S. Mission to
                        The European Union and U.S. Mission to the North
                        Atlantic Treaty Organization                                             01-04
SIO-I-04-03A            Security Inspection of Embassy Colombo, Sri Lanka                        01-04

SIO-I-04-04A            Security Inspection of Embassy Dhaka, Bangladesh                         01-04

SIO-I-04-05A            Security Inspection of Embassy Dili, East Timor                          01-04
SIO-I-04-07A            Security Inspection of the Bureau of
                        Educational and Cultural Affairs                                         01-04
SIO-I-04-09A            Security Inspection of Embassy Kathmandu, Nepal                          01-04

SIO-I-04-10A            Security Inspection of Embassy Luxembourg                                01-04

SIO-I-04-13A            Security Inspection of Embassy Seoul, Republic of Korea                  01-04

Audits

SIO-A-04-08             Protection of Classified Documents at Overseas Posts                     03-04

SIO-A-04-11             Protection of Classified Documents at Headquarters                       02-04

Compliance Follow-Up

SIO-C-04-14A            Compliance Follow-up of Embassy Ulaanbaatar, Mongolia                    01-04




  Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004   67
                                               Inspections

ISP-I-04-02A             Inspection of Embassy Brussels, Belgium                                01-04

ISP-I-04-03A             Inspection Embassy Colombo, Sri Lanka                                  01-04

ISP-I-04-04A             Inspection of Embassy Dhaka, Bangladesh                                01-04

ISP-I-04-05A             Management Assessment of Review of Embassy Dili, East Timor            01-04

ISP-I-04-06              Inspection of the Bureau of Economic and Business Affairs              01-04

ISP-I-04-07A             Inspection of the Bureau of Educational and Cultural Affairs           03-04
ISP-I-04-08              Inspection of the European Logistical Support Office,
                         Antwerp, Belgium, Memorandum Report                                    01-04
ISP-I-04-09A             Inspection of Embassy Kathmandu, Nepal                                 01-04

ISP-I-04-10A             Inspection of Embassy Luxembourg                                       01-04

ISP-I-04-11              Inspection of the Bureau of Near Eastern Affairs                       02-04

ISP-I-04-12              Inspection of the Bureau of South Asian Affairs                        01-04

ISP-I-04-13A             Inspection of Embassy Seoul, Republic of Korea                         01-04

ISP-I-04-14A             Inspection of Embassy Ulaanbaatar, Mongolia                            01-04

ISP-I-04-15A             Inspection of the U.S. Mission to the European Union                   01-04
ISP-I-04-16A             Inspection of the U.S. Mission to the North Atlantic
                         Treaty Organization                                                    01-04
ISP-I-04-18              Review of Allegations Related to the Relocation of Operations
                         Of the Bureau of Resource Management to the Charleston
                         Financial Service Center                                               03-04
Consular Affairs

ISP-CA-04-01             Review of the Overseas Passport Issuance Program                       11-03
ISP-CA-04-17             Review of the Department of State Procedures
                         Related to the Issuance of Visas to the
                         September 11, 2001, Terrorists                                         12-03



                                                Audits

Contracts and Grants

AUD/CG-04-09             Review of AYUSA International                                          12-03
AUD/CG-04-10             Review of the National Democratic Institute for
                         International Affairs Indirect Cost Rates
                         for Fiscal Years 1999, 2000, 2001, and 2002                            01-04


68   Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004
AUD/CG-04-20            Review of the National Committee on
                        United States-China Relations, Inc.                                         03-04
AUD/CG-04-21            Review of the Center for International Private
                        Enterprise Indirect Cost Rates for Fiscal Years 2001 and 2002               03-04
Procurement, Property and Administrative Support

AUD/PPA-04-01           Review of Department of State's Unauthorized
                        Commitments and Ratification Process                                        10-03
AUD/PPA-04-03           Review of Administrative Operations at Embassy Colombo                      12-03
AUD/PPA-04-04           Review of Allegations Regarding the Foreign Post Telephone
                        Contract                                                                    03-04
AUD/PPA-04-05           Joint Review of the Inventory of Assets of the Diplomatic
                        Telecommunications Service Program Office (Classified)                      12-03
AUD/PPA-04-13           Review of Electrical Engineering Services Procurement                       01-04
Program Reviews

AUD/PR-04-11            Independent Attestation Review Annual Accounting of Drug
                        Control Funds by the Department of State                                    03-04
Financial Management

AUD/FM-04-06            Application of Agreed-Upon Procedures: Retirement,
                        Health Benefits and Life Insurance Withholdings/
                        Contributions and Supplemental Semiannual Headcount
                        Report Submitted to the Office of Personnel Management                      10-03
AUD/FM-04-12            Audit of U.S. Department of State 2003 and 2002
                        Principal Financial Statements                                              12-03
AUD/FM-04-14            Agreed-Upon Procedures Report on Federal
                        Intragovernmental Activity and Balances                                     02-04
AUD/FM-04-15            Agreed-Upon Procedures for the Final Account
                        Groupings Worksheet                                                         02-04
AUD/FM-04-16            Audit of Payments Made Without an Obligation                                03-04

AUD/FM-04-17            Audit of Duplicate Payments                                                 03-04

AUD/FM-04-18            Audit of the Vendor Reference Table                                         03-04
AUD/FM-04-19            Status of the Department's Remediation Plan
                        for the Federal Financial Management
                        Improvement Act                                                             03-04




     Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004   69
70   Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004
                   APPENDIX 3: SAVINGS AND MORE
                   EFFECTIVE USE OF RESOURCES
                                                               Table 1

                            INSPECTOR GENERAL ISSUED AUDIT REPORTS
                                    WITH QUESTIONED COSTS4

                                                          Number                          (Dollars in Thousands)
                                                        of Reports           Questioned Costs               Unsupported Costs

A.   For which no management
     decision has been made by
     the commencement of the
     reporting period                                        10                         12,318                    9,094

B.   Which were issued during
     the reporting period                                      3                            789                       21

     Subtotals (A+B)                                         13                         13,107                    9,115

C.   For which a management
     decision was made during
     the reporting period
        - based on formal
     administrative or judicial appeal
     (i) dollar value of disallowed costs                      1                            515
     (ii) dollar value of costs
     not disallowed

D.   For which no management
     decision has been made by the
     end of the reporting period                             12                         12,592                    9,115

     Reports for which no
     management decision was
     made within 6 months of
     issuance                                                10                         12,318                    9,094




 4
   Questioned costs are costs that are questioned by the OIG because of an alleged violation of a provision of a law, regulation,
 contract, grant, cooperative agreement, or other agreement or document governing the expenditure of funds; a finding that, at the
 time of the audit, such costs are not supported by adequate documentation; or a finding that the expenditure of funds for the
 intended purpose is unnecessary or unreasonable.




      Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004                        71
                                                      Table 2


                            INSPECTOR GENERAL ISSUED AUDIT REPORTS
                  WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE5


                                                                         Number               Dollar Value
                                                                        of Reports           (in thousands)

          A      For which no management decision has
                 been made by the commencement of the
                 reporting period.                                          2                      670

          B.     Which were issued during the reporting
                 period                                                     0                         0


                 Subtotals (A+B)                                            2                      670

          C.     For which a management decision was
                 made during the reporting period                           0                         0

                  (i) dollar value of recommendations that
                  were agreed to by management                              0                         0
                  —based on proposed management action
                  —based on proposed legislative action

                 (ii) dollar value of recommendations
                  that were not agreed to by management                     0                         0

          D.     For which no management decision
                 has been made by the end of the
                 reporting period                                           2                      670

                 Reports for which no management
                 decision was made within 6 months
                 of issuance.                                               2                      670




     5
       A recommendation that funds be put to better use is a recommendation by the OIG that funds could be used
     more efficiently if Department management took actions to implement and complete the recommendations,
     including: reductions in outlays, deobligation of funds from programs or operations; withdrawal of interest
     subsidy costs on loans or loan guarantees, insurance, or bonds; costs not incurred by implementing
     recommended improvements related to the operations of the Department, a contractor, or a grantee, avoidance
     of unnecessary expenditures noted in preaward reviews of contract or grant agreements; or any other savings
     which are specifically identified.




72       Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004
           Significant Management Successes
         In Implementing OIG Recommendations


    Review of Department of State's Unauthorized
  Commitments and Ratification Process, AUD/PPA-04-01

      In response to OIG's recommendations, the Department has taken several steps
  to clarify the policy on unauthorized commitments and decrease their number, some
  of which are:
  •   The Bureau of Administration, Office of the Procurement Executive has
      updated Department of State Acquisition Regulation System to require that all
      requests for ratification of unauthorized commitments be submitted through
      bureau executive offices, which are to indicate what action will be taken to
      ensure that such commitments not occur again.
  •   The office has issued guidance advising all Department employees of potential
      personal consequences of making unauthorized commitments.
  •   The Bureau of Human Resources has revised 3 FAM 4377 and 3 FAM 4542
      adding unauthorized commitments to the list of offenses that may be subject
      to disciplinary action. As a condition of ratifying an unauthorized commit-
      ment, the Bureau of Administration, Office of the Procurement Executive is
      requiring training based on a review of the facts of each case.




Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004   73
74   Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004
  BROADCASTING BOARD OF GOVERNORS
             INSPECTIONS

    Inspection of the International Broadcasting
  Bureau's Transmitting Station in Sri Lanka, IBO-I-04-02

      The Sri Lanka Transmitting Station performs well. It began transmission in 2000
  and has expanded its transmission capabilities by almost 50 percent in three years.
  This helps the Broadcasting Board of Governors (BBG) achieve its objective of
  effectively reaching target markets in the Middle East, Asia, North and East Africa,
  Afghanistan, the Caucasus, Tibet, and Turkey.

       The transmitting station worked closely with Embassy Colombo to complete
  negotiations with the government of Sri Lanka for authorization to install a seventh
  transmitter. In addition, while operating in a climate of potential political unrest and
  civil war, the station has community action projects to maintain good rapport with its
  neighbors.

      Adequate management controls are in place. However, the station's procurement
  challenges include an increasing workload for the procurement agent and a national
  procurement environment that involves kickbacks, known locally as "commissions."
  The station could benefit from more competition in its procurements.

      Embassy Colombo, through the International Cooperative Administrative
  Support Services and the International Broadcasting Bureau (IBB) headquarters,
  provides personnel and other services. The authority to classify Foreign Service
  national positions at level eight and above has been held by IBB's Office of Person-
  nel in Washington since 1993. The Department of State's (Department) Bureau of
  Human Resources, under contract, developed a computer-aided job evaluation
  system. The software contract was advertised in February 2001 and was available for
  use as of September 1, 2002, for human resource offices that had completed the
  requisite training. Some personnel have been waiting for two years for the automated
  system to go into effect and update their job classifications.




Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004   75
       Inspection of the Middle East News Bureaus of
     the Broadcasting Board of Governors, IBO-I-04-08

         The purpose of this inspection was to assess the general operations of BBG's
     news bureaus in the Middle East, including their program management, program
     performance, and management and internal controls. The news bureaus are staffed
     with dedicated people performing a key role in fulfilling the agency's mission to
     promote and sustain freedom and democracy by broadcasting accurate and objective
     news and information about the United States and the world to audiences overseas.

         Coordination and cooperation among the news bureaus is lacking. Staff point to
     their diverse missions as the reason for the lack of coordination or cooperation. The
     conflict in Iraq has become the major news story, eclipsing the attention given to the
     Middle East peace process. The demands for news about Iraq are being met at the
     expense of news operations in other parts of the region, including Jerusalem. In
     addition, some bureaus are far better equipped than others, but the tools used by the
     news bureaus are being upgraded.

         Management controls are generally weak. This situation arises from the fact that
     the primary purpose of the bureaus is the business of news. Management controls
     are thus both misunderstood and neglected; however, the primary job of news
     gathering and reporting has not suffered from this vulnerability.




76   Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004
          Best Practice: Creating New Programming Awards for
          Internet Achievement

          Issue: Management recognized a need to fairly evaluate the
          quality of the different media produced for: radio, Internet, and
          television.

          Response: Instead of having radio and Internet projects compet-
          ing with television, which the Voice of America director cited as
          very unfair, he changed the system so that radio stories competed
          only with other radio stories, television with television, and Internet
          with Internet.

          The Voice of America director created three new award categories
          solely for Internet entries: (1) Best Original Internet Production, (2)
          Best Use of Internet for Coverage of a Special Event or Topic, and
          (3) Americana and the American Experience.

          Result: This change will provide new incentives for excellence in
          what OIG sees as a major means of distributing news and infor-
          mation in the future.




Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004   77
       Inspection of the International Broadcasting
     Bureau's Kuwait Transmitting Station, IBO-I-04-04

         The purpose of this inspection was to assess the general operations of IBB's
     transmitting station in Kuwait, including its program management, program perfor-
     mance, and management controls. The Kuwait Transmitting Station is strategically
     located, has very low operating costs, and performs well. This enables BBG to
     achieve its objective of effectively reaching target audiences of the Middle East and
     South Asia, especially with regard to the war on terrorism, with a daily 24-hour flow
     of information from the agency's broadcasting entities that are relevant to these
     audiences.

         The Kuwait station is expanding its transmitting capabilities to make better use
     of the advantages afforded by its location and low operating costs. This sound
     decision by BBG management will increase the impact of the agency's scarce re-
     sources.




                                  Kuwait Transmitting Station

         A major project to support shortwave transmissions to Afghanistan, for the first
     time from the Kuwait Transmitting Station, has experienced difficulties that have
     delayed the scheduled February 2004 project completion. However, the delays
     appear to be attributable to the contractor rather than to station management or its
     monitoring of the project. To save the cost of purchasing new units, IBB repro-
     grammed three 250-kW shortwave transmitters from the closed Gloria Transmitting
     Station in Portugal.




78   Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004
      Although generally well managed, the Kuwait Transmitting Station needs to
  improve on a number of its procedures in order to strengthen management controls,
  including time and attendance and inventory control. Staff possessing contract
  warrants do not meet federal certification standards for performing such work. They
  need to have the training and certification required by the Office of Federal Procure-
  ment Policy.

      The Kuwait Transmitting Station initiated FM broadcasts of Radio Sawa to
  Kuwait City in January 2003. This was done on the basis of verbal and written
  assurances, in principle, of being granted an additional new frequency. The station
  did not have formal approval from the government of Kuwait, which may jeopardize
  the continuation of those broadcasts.




Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004   79
             BROADCASTING BOARD OF GOVERNORS
                 INFORMATION TECHNOLOGY




80   Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004
  BROADCASTING BOARD OF GOVERNORS
               AUDITS

    Review of the Broadcasting Board of Governors'
  Use of the Internet and Related New Technologies,
  IBO-A-04-03

      Two of BBG's strategic goals have particular relevance to its broadcasting
  entities' use of the Internet. Goal I is to "...design the broadcasting architecture for
  the 21st century." Goal III is to "...employ modern communication techniques and
  technologies" across the board.

       BBG's broadcasting entities --Voice of America (VOA), Office of Cuba Broad-
  casting (OCB-Radio and TV Marti), Radio Free Europe/Radio Liberty (RFE/RL),
  Radio Free Asia (RFA), Radio Sawa, and Radio Farda -- have a wide variety of web
  sites, ranging from those that post basic information and are infrequently updated to
  others that provide a vast array of information and options. OIG worked closely
  with BBG and entity officials to prepare detailed charts that show the kinds of
  Internet activity for each entity. For example, VOA's worldwide news homepage is
  VOA's most comprehensive site. RFE/RL's English language web site offers a
  portal for all RFE/RL web site operations. RFA has ten language web sites that
  range from Burmese to Vietnamese, featuring audio programs in two possible
  formats. OCB is continuing to revamp its language service web site. From its
  homepage, it has links to Radio Marti and TV Marti. Radio Sawa came on the air in
  March 2002 and launched its web site two weeks later, streaming six different subre-
  gional programs simultaneously.

      BBG's Internet presence and management's support continue to grow. Over the
  course of this review, an Internet evaluation team was meeting weekly to standardize
  performance measures; IBB's Office of Internet Services hired a new network
  systems coordinator; VOA, RFE/RL, and RFA were redesigning and improving their
  content management systems; RFA's Lao service got up and running; and Radio
  Sawa and Radio Farda sites were growing.

      Still, BBG faces challenges in developing its Internet presence. These challenges
  include organizational structure, strategic planning, adequate funding, Internet
  blocking, and human capital issues. BBG's organizational structure has no high-level
  advocate who can support Internet development and resolve internal disagreements.

Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004   81
     Strategic planning needs to be more specific, and funding and reallocation of re-
     sources are crucial. BBG would benefit from conducting an analysis of its human
     capital needs for the Internet and from presenting to the OMB and relevant congres-
     sional committees a package of its needs for developing its use of the Internet.

         BBG continues to explore related new technologies to reach target audiences.
     Congress has assisted BBG by providing funding enhancements to combat jamming
     and Internet blocking. Several language services are using e-mail for distributing their
     messages. Some consider e-mail better than the Internet because it is harder to
     block, goes directly to users, and may be safer for users to receive than to actively
     surf the Internet because they can say that the e-mail was unsolicited. In addition,
     technology allows using wireless devices, such as cellular mobile telephones, personal
     digital assistants, and others, for Internet-based access. RFE/RL reported that it had
     protocol sites that people in Russia and a few other countries could access via their
     cellular telephones. OIG learned that in the Middle East there are places without
     access to Internet but with access to short messaging and e-mail service through
     their cellular telephones. This technology is now available, but the issue is the cost
     and Congress' willingness to fund it.



             Best Practice: Creating a Symbiotic Relationship to Avoid
             Functional Duplication

             Issue: The collocation of VOA and Radio Sawa staff in Jerusalem
             avoided wasteful duplication.

             Response: The two operations developed a symbiotic relationship
             in the same office without interfering with the mission of either
             one. Some news events are worked in tandem; actualities are
             shared; and VOA provides administrative support, access to wire
             services, as well as office space and equipment.

             Result: BBG saves scarce funds by avoiding unnecessary and
             wasteful duplication. The news coverage of both operations is
             enhanced.




82   Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004
  BROADCASTING BOARD OF GOVERNORS
           INVESTIGATIONS


      Conflict of Interest

      OIG received information from BBG's Office of General Counsel that a BBG
  employee was engaging in a conflict of interest. The senior BBG employee oversaw
  the disbursement of $92,000 in training grant funds to a grantee, which then subcon-
  tracted with a company headed by the BBG employee's spouse. In October 2003
  OIG executed a search warrant on the BBG employee's personal residence that
  uncovered further evidence of the conflict of interest. On January 14, 2004, the
  BBG employee pleaded guilty in U.S. District Court to one count of violating 18
  USC 208. Concurrently, the employee was terminated from BBG and was debarred
  from doing business with BBG for three years. Sentencing is tentatively scheduled
  for May 2004.




Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004   83
                BROADCASTING BOARD OF GOVERNORS
                APPENDIX 1: INVESTIGATIVE ACTIVITIES




84   Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004
  BROADCASTING BOARD OF GOVERNORS
  APPENDIX 1: INVESTIGATIVE ACTIVITIES

  Workload

                    Workload                                               Number


                    Cases pending 9/30/03                                      3
                    New cases opened                                           0
                    Cases closed                                               0
                    Cases pending 3/31/04                                      3


                    Preliminary inquiries pending 9/30/03                      1
                    Preliminary inquiries opened                               1
                    Preliminary inquiries closed                               2
                    Preliminary inquiries converted to cases                   0
                    Preliminary inquiries pending 3/31/04                      0


                    Total Judicial Actions                                     2


                    Prosecutive Referral                                       0
                    Prosecutive Declination                                    0
                    Criminal Indictment                                        1
                    Criminal Conviction                                        1
                    Total Administrative Actions                               1
                    Terminations                                               1



               The statistics and narrative case descriptions of investigative activities
               appearing in this semiannual report are the result of reports received from
               prosecutive and administrative authorities. The final actions may be
               changed at a later date by individual use of administrative and judicial ap-
               peals processes.




Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004   85
86   Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004
     BROADCASTING BOARD OF GOVERNORS
        APPENDIX 2: REPORTS ISSUED

Inspections

IBO-I-04-02             Inspection of IBB's Transmitting Station in Sri Lanka                          03-04

IBO-I-04-04             Inspection of IBB's Kuwait Transmitting Station                                03-04

IBO-I-04-08             Inspection of the Middle East News Bureaus of the BBG                          03-04



Audits

IBO-A-04-03            Review of the BBGs' Use of the Internet and
                       Related New Technologies                                                    03-04




    Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004      87
88   Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004
      BROADCASTING BOARD OF GOVERNORS
        APPENDIX 3: SAVINGS AND MORE
         EFFECTIVE USE OF RESOURCES
                                                Table 1

                                                Table 1

                    INSPECTOR GENERAL ISSUED AUDIT REPORTS
                            WITH QUESTIONED COSTS

                                            Number                  (Dollars in Thousands)
                                           of Reports             Questioned      Unsupported
                                                                    Costs            Costs

A. For which no management
   decision has been made by
   the commencement of the
    reporting period                             0                    0                    0

B. Which were issued during
   the reporting period                          0                    0                    0

    Subtotals (A+B)                              0                    0                    0

C. For which a management
   decision was made during
   the reporting period
   - based on formal
   administrative or judicial appeal
   (i) dollar value of disallowed costs         0                      0                   0
   (ii) dollar value of costs
   not disallowed                               0                     0                    0

D. For which no management
   decision has been made by the
   end of the reporting period                   0                    0                    0

    Reports for which no
    management decision was
    made within 6 months of issuance             0                    0                    0




    Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004   89
                                           Table 2


                        INSPECTOR GENERAL ISSUED AUDIT REPORTS
              WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE


                                                                 Number           Dollar Value
                                                                of Reports       (in thousands)

     A      For which no management decision has
            been made by the commencement of the
            reporting period.                                        0                 0

     B.     Which were issued during the reporting
            period                                                   0                 0

            Subtotals (A+B)                                          0                 0

     C.     For which a management decision was
            made during the reporting period                         0                 0

             (i) dollar value of recommendations that
              were agreed to by management                           0                 0
               —based on proposed management action
               —based on proposed legislative action

            (ii) dollar value of recommendations
             that were not agreed to by management                   0                 0

     D.     For which no management decision
            has been made by the end of the
            reporting period                                         0                 0

            Reports for which no management
            decision was made within 6 months
            of issuance.                                             0                 0




90   Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004
              BROADCASTING BOARD OF GOVERNORS
                  APPENDIX 4: RESOLUTION OF
                REPORTS AND RECOMMENDATIONS
                                  Previously Reported Significant Audit
                                Recommendations1 Pending Final Action 2


Report Number IBO-A-02-03

   Review of the Broadcasting Board of Governors’                              First Reported: September 30, 2002
Controls on Domestic Personal Property


  Recommendation No. 1            Complete an agencywide inventory by January 2003.

  Recommendation No. 2            Implement agency plan to comply with applicable property
                                  accounting and reporting requirements.




                             APPENDIX 2: REPORTS ISSUED
                           A
                           APPENDIX 2:
                            PPENDIX 2: R EPORTS IISSUED
                                       REPORTS    SSUED
                           APPENDIX 2: REPORTS ISSUED




          1
            Includes audit recommendations reported as significant in semiannual reports prior to March 31,
          2004, on which the Department management has agreed to take corrective action but for which
          those actions are not yet complete.
          2
            Final action is recorded when a proposed course of action in response to a recommendation has
          been accepted by OIG and completed by management to OIG’s satisfaction.

         Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004     91
        Significant Problems, Abuses and Deficiencies

         The inspection of the Kuwait Transmitting station revealed two significant
     deficiencies. The training requirements for officers holding warrants were not being
     met. Also, the transmitting station and Embassy Kuwait City had not formally
     completed an exchange of diplomatic notes with the Government of Kuwait to
     amend the bilateral agreement to grant an additional FM radio frequency. Although
     it was clearly the intent of the Government of Kuwait to approve the U.S. request,
     the failure to complete this matter subjects future FM broadcasts of Radio Sawa to
     unnecessary risks.




       Significant Management Success in Implementing
     OIG Recommendations

          The BBG continues to take significant steps in implementing recommendations
     from Strategic Management of Human Capital and Workforce Planning Initiatives at
     the Broadcasting Board of Governors Report Number IBO-A-03-02, September
     2003. For example, the agency completed a detailed annual plan for workforce
     diversity, including specific objectives, action items, and a thorough analysis of its
     workforce. The plan, along with the workforce analysis, has been filed with the
     Equal Employment Opportunity Commission. Further, BBG has pledged to ensure
     that workforce restructuring and human capital plans incorporate workforce diversity
     plans. In March 2004, BBG's Office of Civil Rights, in conjunction with the Diver-
     sity Leadership Council, plans to disseminate questionnaires for an agency-wide
     survey of attitudes in the current work environment.

         As a result of training deficiencies impacting warrants, described in Inspection
     of the International Broadcasting Bureau's Kuwait Transmitting Station Report
     Number IBO-I-04-04, March 2004, BBG sent a January 2004 instruction alerting
     BBG domestic and overseas staff to mandatory training requirements prescribed by
     the Office of Federal Procurement Policy (OFPP) and detailed how this training
     requirement could be satisfied. OIG did see evidence later that IBB engineering
     staff were taking immediate action. However, perhaps because the BBG instruction
     focused on transmitting stations about to be inspected by OIG, Voice of America
     correspondents did not appear to be sensitized to the need to comply with OFPP
     guidance. Although an important step was taken, more work remains to be done.


92   Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004
                    LIST           OF    ABBREVIATIONS

                 A/LM/AQM               Bureau of Administration,Office of Logistics
                                        Management, Office of Acquisitions Management
                           BBG          Broadcasting Board of Governors
                           BPP          Bureau Performance Plan
                             CA         Bureau of Consular Affairs
                         CFMS           Central Financial Management System
                          CFPS          Central Financial Planning System
                          CIPE          Center for International Private Enterprise, Inc.
                   Department           Department of State
                             EB         Bureau of Economic and Business Affairs
                           ECA          Bureau of Educational and Cultural Affairs
                         ELSO           European Logistical Support Office
                             EU         European Union
                        FACTS           Federal Agencies' Centralized Trial-Balance System
                            FCS         Foreign Commercial Service
                        FFMIA           Federal Financial Management Improvement Act
                                        of 1996
                           FSN          Foreign Service National
                          GAO           General Accounting Office
                            IBB         International Broadcasting Bureau
                             IM         Information Management
                           IRM          Bureau of Information Resource Management
                              IT        Information Technology
                          MEPI          Middle East Partnership Initiative
                           MPP          Mission Performance Plan
                        NATO            North Atlantic Treaty Organization
                           NDI          National Democratic Institute for International
                                        Affairs

Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004   93
                            NEA          Bureau of Near Eastern Affairs
                        NEA/PI           Bureau of Near Eastern Affairs/Office of the
                                         Partnership Initiative
                            OBO          Bureau of Overseas Buildings Operations
                             OCB         Office of Cuba Broadcasting
                           OFPP          Office of Federal Procurement Policy
                             OIG         Office of Inspector General
                            OMB          Office of Management and Budget
                        ONDCP            Office of National Drug Control Policy
                            PART         Performance Assessment Review Tool
                            PMA          Presidential Management Agenda
                             RFA         Radio Free Asia
                        RFE/RL           Radio Free Europe/Radio Liberty
                           RIMC          Regional Information Management Center
                              RM         Bureau of Resource Management
                               SA        Bureau of South Asian Affairs
                           SEVIS         Student and Exchange Visitor Information System
                         Treasury        Department of the Treasury
                            USIA         U.S. Information Agency
                          USAID          U.S. Agency for International Development
                           USEU          U.S. Mission to the European Union
                           USFK          U.S. Forces in South Korea
                       USNATO            U.S. Mission to the North Atlantic Treaty
                                         Organization
                           USUN          U.S. Mission to the United Nations
                            VOA          Voice of America




94   Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004
                          INDEX OF REPORTING REQUIREMENTS
                  INSPECTOR GENERAL ACT OF 1978, AS AMENDED



R EQUIREMENT S UBJECT                                                                   PAGE NUMBERS

Section 4(a)(2)   Review of legislation and regulations                                              10-11
Section 5(a)(1)   Significant problems, abuses, and deficiencies                                           92
Section 5(a)(2)   Significant recommendations for corrective action                                        92
Section 5(a)(3)   Prior significant recommendations unimplemented                                          91
Section 5(a)(4)   Matters referred to prosecutive authorities                                 61-65, 83-85
Section 5(a)(5)   Information or assistance refused                                                      None
Section 5(a)(6)   List of reports issued                                                         67-69, 87
Section 5(a)(7)   Summaries of significant reports                                           17-59, 75-82
Section 5(a)(8)   Audit reports–questioned costs                                                     71, 89
Section 5(a)(9)   Audit reports–funds to be put to better use                                        72, 90
Section 5(a)(10) Prior audit reports unresolved                                                      71-72
Section 5(a)(11) Significant revised management decisions                                                None
Section 5(a)(12) Significant management decisions with which OIG disagreed                               None




      Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004     95
                             Summary of OIG Accomplishments

     Financial Results:
     Questioned costs
           Issued during the reporting period                                     $ 789, 000
           Management decision during the reporting period                        $ 515,000

     Recommendations for funds to be put to better use
           Issued during the reporting period                                     $0
           Management decision during the reporting period                        $0

     Investigative recoveries                                                     $ 20,119

     Investigative Results:
     Cases opened                                                                            23
     Cases closed                                                                            12
     Judicial actions                                                                        21
     Administrative actions                                                                 6
     Hotline and complaint activity                                                       184

     Reports Issued:                                                                         52




                           Pictured on the front cover: Embassy Kathmandu, Nepal

                        Photo provided by Office of Overseas Buildings Operations


                                Requests for additional copies of this publica-
                                tion should be addressed to:

                                        Office of Inspector General
                                        U.S. Department of State
                                        OIG/ADM, Room 810
                                        1700 North Moore Street
                                        Arlington, VA 22209



                                       Department of State Publication 11097
                                             Office of Inspector General




96   Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004
              FRAUD, WASTE, ABUSE, OR MISMANAGEMENT
                      of Federal programs and resources
                               hurts everyone.

                            Call the Office of Inspector General
                                          HOTLINE
                                         202/647-3320
                                     or 1-800-409-9926
                              or e-mail oighotline@state.gov
                            to report illegal or wasteful activities.

                                    You may also write to
                                 Office of Inspector General
                                  U.S. Department of State
                                    Post Office Box 9778
                                    Arlington, VA 22219

                           Please visit our website at oig.state.gov

                              Cables to the Inspector General
                             should be slugged “OIG Channel”
                                  to ensure confidentiality.




98   Office of Inspector General Semiannual Report to the Congress, October 1, 2003 to March 31, 2004
